<html>
<title> - THE STATE OF THE AMERICAN CHILD</title>
<body><pre>[Senate Hearing 111-1142]
[From the U.S. Government Publishing Office]






                                                       S. Hrg. 111-1142

                    THE STATE OF THE AMERICAN CHILD

=======================================================================

                                HEARING

                                 of the

                 SUBCOMMITTEE ON CHILDREN AND FAMILIES

                                 OF THE

                    COMMITTEE ON HEALTH, EDUCATION,
                          LABOR, AND PENSIONS

                          UNITED STATES SENATE

                     ONE HUNDRED ELEVENTH CONGRESS

                             SECOND SESSION

                                   ON

               EXAMINING THE STATE OF THE AMERICAN CHILD

                               __________

                              JUNE 8, 2010

                               __________

 Printed for the use of the Committee on Health, Education, Labor, and 
                                Pensions







[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]






      Available via the World Wide Web: http://www.gpo.gov/fdsys/



                                _____

                  U.S. GOVERNMENT PRINTING OFFICE

56-941 PDF                WASHINGTON : 2012
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001





          COMMITTEE ON HEALTH, EDUCATION, LABOR, AND PENSIONS

                       TOM HARKIN, Iowa, Chairman

CHRISTOPHER J. DODD, Connecticut     MICHAEL B. ENZI, Wyoming
BARBARA A. MIKULSKI, Maryland        JUDD GREGG, New Hampshire
JEFF BINGAMAN, New Mexico            LAMAR ALEXANDER, Tennessee
PATTY MURRAY, Washington             RICHARD BURR, North Carolina
JACK REED, Rhode Island              JOHNNY ISAKSON, Georgia
BERNARD SANDERS (I), Vermont         JOHN McCAIN, Arizona
SHERROD BROWN, Ohio                  ORRIN G. HATCH, Utah
ROBERT P. CASEY, JR., Pennsylvania   LISA MURKOWSKI, Alaska
KAY R. HAGAN, North Carolina         TOM COBURN, M.D., Oklahoma
JEFF MERKLEY, Oregon                 PAT ROBERTS, Kansas
AL FRANKEN, Minnesota                
MICHAEL F. BENNET, Colorado          
                                     

                      Daniel Smith, Staff Director
                  Pamela Smith, Deputy Staff Director
     Frank Macchiarola, Republican Staff Director and Chief Counsel
                 Subcommittee on Children and Families

               CHRISTOPHER J. DODD, Connecticut Chairman

JEFF BINGAMAN, New Mexico            LAMAR ALEXANDER, Tennessee
PATTY MURRAY, Washington             JUDD GREGG, New Hampshire
JACK REED, Rhode Island              JOHN McCAIN, Arizona
BERNARD SANDERS (I), Vermont         ORRIN G. HATCH, Utah
SHERROD BROWN, Ohio                  LISA MURKOWSKI, Alaska
ROBERT P. CASEY, JR., Pennsylvania   TOM COBURN, M.D., Oklahoma
KAY R. HAGAN, North Carolina         PAT ROBERTS, Kansas
JEFF MERKLEY, Oregon                 MICHAEL B. ENZI, Wyoming (ex officio)
TOM HARKIN, Iowa (ex officio)        
                                     

                   Tamar MagarikHaro, Staff Director
                David Cleary, Republican Staff Director

                                  (ii)





                            C O N T E N T S

                               __________

                               STATEMENTS

                         TUESDAY, JUNE 8, 2010

                                                                   Page
Dodd, Hon. Christopher J., Chairman, Subcommittee on Children and 
  Families, Committee on Health, Education, Labor, and Pensions, 
  opening statement..............................................     1
Alexander, Hon. Lamar, a U.S. Senator from the State of Tennessee     4
Sanders, Hon. Bernard, a U.S. Senator from the State of Vermont..     5
Casey, Hon. Robert P., Jr., a U.S. Senator from the State of 
  Pennsylvania...................................................     6
Powell, Alma J., Chair, America's Promise Alliance, Washington, 
  DC.............................................................     9
    Prepared statement...........................................    10
Zimmerman, Elaine, Executive Director, Connecticut Commission on 
  Children, Hamden, CT...........................................    13
    Prepared statement...........................................    16
Lund, Jack, President and CEO, YMCA of Greater New York; New 
  York, New York.................................................    21
    Prepared statement...........................................    24
Holzer, Harry J., Ph.D., Economist, Georgetown University and 
  Urban Institute, Washington, DC................................    28
    Prepared statement...........................................    30

                          ADDITIONAL MATERIAL

Statements, articles, publications, letters, etc.:
    .............................................................
    Response to questions of Senator Brown by:
        Alma J. Powell...........................................    49
        Jack Lund................................................    49
        Harry J. Holzer, Ph.D....................................    50

                                 (iii)

  

 
                    THE STATE OF THE AMERICAN CHILD

                              ----------                              


                         TUESDAY, JUNE 8, 2010

                                       U.S. Senate,
                     Subcommittee on Children and Families,
       Committee on Health, Education, Labor, and Pensions,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 10:02 a.m. in 
Room SD-430, Dirksen Senate Office Building, Hon. Christopher 
J. Dodd, Chairman of the subcommittee, presiding.
    Present: Senators Dodd, Sanders, Casey, and Alexander.

                   Opening Statement of Senator Dodd

    Senator Dodd. Well, good morning, all. I see we've got 
quite a crowd here this morning. Sorry we don't have more seats 
for all of you.
    Let me welcome you all to our committee hearing this 
morning of the Health, Education, Labor, and Pensions full 
committee, our Subcommittee on Children and Families, and on 
our hearing this morning--good morning, Bernie--the first of a 
series of hearings we intend to hold on the condition and 
status of the American child. This is the first such hearing.
    I want to thank my good friend and colleague Lamar 
Alexander, who's the ranking member of this committee and with 
whom I've worked closely on a number of issues over the last 
years involving children and their families. And there are 
other members of the committee, both Democrats and Republicans, 
who have a strong interest in the subject matter, as well.
    This morning we're going to generally discuss that 
condition and status, and steps we might take in moving 
forward, and then, over the next few months, a series of 
hearings on more specific subject matters as they affect the 
American child.
    I was saying to my staff, earlier this morning, we have a 
wonderful committee, here, on Aging, in the U.S. Senate. It's 
been a very good committee, and have done a tremendous job, 
over the years, of highlighting the problems that older 
Americans face. But, I've often thought that, while we don't 
have--this is really the only committee of the Senate that 
focuses specifically on children. A lot of committees deal with 
it, obviously--the Finance Committee and others, the 
Agriculture Committee, with food and so forth--but, we don't 
have a specific committee that deals with one out of four 
Americans who are under the age of 18.
    This Committee on Children and Families, over the years, 
has focused a lot of attention on this subject matter. But, 
candidly, we're seeing a condition that's not getting better, 
too often; getting worse. In fact, Lamar pointed out a study to 
me, I think, done in Tennessee a while back, that indicated 
that things were not going well for that American child; in 
fact, they may be the first generation of Americans that does 
less well than their parents. A stunning comment that my friend 
made to me a couple of years ago, from Tennessee.
    Anyway, let me share some opening comments. I'll turn to 
Senator Alexander for any opening thoughts he has, and then 
we'll turn to our witnesses this morning. I'm delighted you're 
here with us to spend some time. Thank you for joining us.
    As many of you know, this is my last year in the U.S. 
Senate. And, although I've only been a parent for 8 of those 30 
years that I've been here, the most rewarding work I've done in 
the Senate has been the issues affecting children and their 
families. You don't have to be a parent to know how much goes 
into determining whether a child is able to reach his or her 
full potential. But, if you are one, you certainly can 
appreciate it.
    Some of it is instinctual. Jackie, my wife, and I try to 
teach our children the difference between right and wrong, just 
like most parents do across our Nation. We tell them to keep 
away from strangers, look both ways when they cross the street. 
We try to get them to eat broccoli once in a while, as well. 
But, during my time here, we've learned more and more about 
what kids need in order to succeed. We're coming to redefine 
what is a children's issue, and we've come to realize that the 
government has a role to play in providing the resources that 
families need, to thrive.
    For instance, we've learned that a child's development 
begins well before his or her first day of kindergarten or 
preschool. And so, I've worked to build an effective Head Start 
Program so that every American child can be prepared to excel 
in school.
    We've learned that, while a child's development begins at 
birth, it doesn't start and stop with the ring of the school 
bell. And so, I've worked to establish safe and stimulating 
childcare facilities, as well as quality after-school 
programming.
    We've learned that a child's family life is every bit as 
important as his or her development as in what happens in the 
classroom. And so, I've fought, along with many others, for the 
Family Medical Leave Act, so that parents don't have to choose 
between being the caring mom or dad a sick child needs and 
being the breadwinner that every family also needs.
    We've learned that keeping our kids healthy is about more 
than just winning the broccoli wars. And so, I've fought to 
help every family afford pediatric checkups, through the CHIP 
program, to keep kids away from the influence of Big Tobacco, 
and to spread awareness of effective safeguards against food 
allergies, and to reduce the number of babies born prematurely.
    I'm proud of that work, but I'm well aware that there's 
more work to be done. And that's why I've called these 
hearings, because our work to empower every American child is 
not, and will never be, done, in a sense. For instance, while 
I'm proud that the Family and Medical Leave Act has allowed 
millions of workers to take job-protected leave, less than 8 
percent have access to paid leave. And, while Head Start has 
proven to be effective in preparing children for kindergarten, 
it serves less than half the eligible children; and Early Head 
Start serves only 6 percent of eligible children.
    An achievement gap persists in our schools, where poor kids 
and minorities lag behind their classmates; money to fix our 
crumbling facilities, to alleviate our crowded classrooms, and 
provide quality after-school programs is scarce.
    One in a hundred children are victims of substance abuse, a 
number that doubles for those under 1 year of age. And nearly 
three-quarters of a million children were abused or neglected 
last year alone. And every 101 minutes, a child in the United 
States dies from an unintentional injury, such as a vehicle 
crash or a fire, making it the leading cause of death and 
disability for children ages 1 to 14 in our Nation.
    In addition, we can't ignore the fact that this discussion 
is taking place in the wake of a brutal recession that'll have 
a tragic impact on American families long after the economic 
indicators have turned around. One in seven children in our 
Nation have an unemployed parent; one in five live in poverty; 
and an additional 5 million children will be driven into 
poverty before this recession is over. One in four children 
currently use food stamps. And half of all children will use 
them at some point during their childhood. This recession will 
end, but its impact will endure long after.
    You can make up for a bad quarter in the stock market, but 
it's not so easy to recoup what this recession has cost the 
children and their families who have felt its sting. I'm not a 
pessimist. As a parent, I know that my generation is equipped 
with more awareness, more resources, and more support than our 
parents were when they were faced with the challenge of raising 
us. But, we know that we have more work to do, and we know that 
the challenges we face are mounting. That's why I'm announcing, 
today, that I plan to introduce legislation to create a 
national commission on children in order to regularly and 
closely examine the needs of American families, and identify 
solutions.
    There's a reason our children get report cards in school; 
they help us clearly identify how they're doing. Only by 
assessing, honestly, our progress--celebrating our successes 
when they occur, and acknowledging our failures when they 
happen, as well--can we improve on the status of our children.
    Today, we have a distinguished panel of experts who can 
help us answer these critical questions: What do kids and 
families need in order to thrive? How are we doing when it 
comes to making those resources available to them? What can we 
do better to see that our children are going to be better 
served?
    One thing that Jackie and I teach our daughters is that 
it's never a bad thing to ask questions. It's the best way to 
learn. And I hope that these hearings, over the next several 
weeks and months, can be a learning experience for all of us, 
those who sit on this side of the dais and those who are 
gathered here today. And I hope that these hearings will 
highlight the critical need for a national commission on 
children so that, even after I've left this institution, 
policymakers who are at this very table will continue to turn 
what we learn into action.
    I thank you all for being here today, and I hope we can get 
started.
    With that, let me turn to my good friend and colleague, 
Senator Lamar Alexander.

                     Statement of Senator Alexander

    Senator Alexander. Thank you, Chris.
    And welcome, to the witnesses and all who are here.
    Chris Dodd has been a Senator for 30 years. As he said, 
he's been a Senator much longer than he's been a parent. But, 
all of that time, his focus has been on children and families. 
And because of that work, history will record Chris Dodd as a 
consequential U.S. Senator.
    It's been my privilege to work with him, the last 8 years, 
and he's not only an effective member of his own party, he 
works hard to work across party lines because, in the U.S. 
Senate, most of the time, that's the way you get a result.
    As he said on the school-based health clinics, we worked 
together on that. I think we're both particularly pleased with 
what we call the PREEMIE Act. We worked with the March of Dimes 
there to understand, better, the causes of premature birth. We 
really don't know what all the reasons are.
    Nor do we know all the reasons for the food allergies that 
beset so many parents. And Chris has a special interest in 
that, and we've worked together to develop legislation to help 
schools do a better job of focusing on that. Head Start 
reauthorization for 2007 was a really superior legislative 
response to one of our most popular and effective programs.
    And Chris showed, following Katrina, that he's not trapped 
in ideology, as sometimes happens around here. We had the 
problem of trying to figure out, What do we do with all these 
kids from New Orleans who suddenly find themselves in Baton 
Rouge, and the public schools may be filled, or they may be 
staying with a family whose children all go to Catholic 
schools? And so, for a year we worked out a situation that 
defied a lot of the conventional thinking around here and put 
the children first, and created what I think was a model 
response to disasters, in terms of dealing with dislocated 
children.
    Chris, thank you for your work, and I look forward to this 
series of hearings and the work of the commission that you 
proposed.
    I look forward to the witnesses, today. I've always been 
struck by the comment of Professor Coleman, of the University 
of Chicago. He said that schools were for the purpose of doing 
what parents don't do as well. And so, the conclusion I've come 
to, in and out of education and dealing with children and 
families for a long time, is that parents and teachers and 
principals are 95 percent of it, and anything we can do to 
create an environment in which they can succeed is probably the 
most important thing we can do for children.
    I can remember, once, my mother was interviewed by a 
newspaper reporter, who wrote that I grew up in a ``lower-
middle-class family in the mountains of Tennessee.'' And she 
was so incensed by that, that she was reading Thessalonians, 
when I called her, to deal with the slur on the family. And she 
said to me at the time,

          ``We never thought of ourselves that way. You had a 
        library card from the day you were 3, and a music 
        lesson from the day you were 4. You had everything you 
        needed that was important.''

    What was unsaid about that was, I had a mother and a father 
who were very busy creating an environment in which I could 
succeed.
    We sometimes have differences of opinion about the role of 
government in creating that environment. But, sometimes, from 
the left and from the right, we see criticisms of a society 
that seems to be at war with parents, making it harder for them 
to succeed.
    We'll have different solutions sometimes, but our goal is 
the same: to create an environment in which America's children 
can succeed. And I, for one, hope that the way to do that is by 
focusing on better parents, better teachers, better principals, 
and giving them support and nourishment so they can do that for 
children.
    Chris, thank you very much for your leadership.
    Senator Dodd. Well, my friend Lamar, thank you so much for 
your very kind and generous comments this morning, as well.
    And let me turn to a couple of my colleagues, see if they 
have an opening comment or two they want to make.
    Senator Sanders.

                      Statement of Senator Sanders

    Senator Sanders. Thank you very much, Mr. Chairman. And 
thank you for all that you've done over the years for children.
    I just wanted, before we hear testimony from our panelists, 
to hope, in their remarks, maybe they will address some of the 
issues that popped up literally this morning.
    USA Today reports that more than one in five kids live in 
poverty. And I quote,

          ``The rate of children living in poverty this year 
        will climb to nearly 22 percent, the highest rate in 
        two decades, according to an analysis by the nonprofit 
        Foundation for Childhood Development.''

    Also, I think, Mr. Chairman, we need an international 
perspective. I get very angry about the way we treat children. 
I think, frankly, it is a national disgrace.
    I am looking, now, at a report--it's the latest that we 
were able to find; I'm sure there are later ones--from UNICEF, 
2007. They list 24 countries in the world, in terms of poverty 
level. And guess what, Mr. Chairman? The good news is that--
well, no, there is no good news. We are in 24th place. And as 
part of this discussion--and it does become a little 
ideological and a little bit political--here are the countries 
that are in first place: Denmark, Finland, Norway, Sweden, 
Belgium. What are they doing in those countries that we are not 
doing in our countries? Are we satisfied that over one in five 
kids lives in poverty, one in four kids gets their nutrition 
from food stamps?
    And what we understand--and you made this point--is that 
when these kids start off at the bottom--there will be 
exceptions, to be sure--but, it is not an accident that we end 
up having more people in jail than any other country on Earth. 
Is there a connection?
    And then, some of my conservatives say, ``Well, government 
is not the solution.'' Well, I don't think government is the 
solution. We all know a strong economy is the solution. But, 
what is Denmark, Finland, Norway, and Sweden doing that the 
United States is not doing? What about the fact that, while 
poverty for children increases, the top 1 percent have also, in 
this country--the very richest people have also seen a huge 
increase in their income? Is that an issue that we should be 
concerned about? Poorest become poorer, children become poor; 
more and more millionaires, more and more billionaires.
    I would hope that, in their discussion today, as we talk 
about why we have the highest rate of childhood poverty in the 
industrialized world, why more and more kids are getting 
poorer, why the gap between the very, very rich and the poor is 
growing wider, whether that is an issue that is worth 
discussing.
    Thank you very much, Mr. Chairman.
    Senator Dodd. Thank you very much.
    Senator Casey, any quick comments you want to make?
    Senator Casey. I'll be brief.

                       Statement of Senator Casey

    Senator Casey. Mr. Chairman, thank you for the hearing, and 
to our witnesses, and for the spotlight that you're providing 
on this challenge.
    I've always thought that we should look at the challenges 
we face with regard to children in a very fundamental way, that 
every child in the country, no matter where they are, no matter 
where they're born, and no matter what circumstances, is born 
with a light inside them. And I've always believed it's the 
responsibility of every public official, whatever level of 
government you're elected to, to do everything you can to make 
sure that that light inside that child reaches its full 
potential.
    We've made tremendous strides in the course--the recent 
American history, and certainly over the last couple of years. 
I think it's at least four things. A child should be provided 
with the opportunity to make sure they have enough to eat and 
basic nutrition. And not necessarily in this order, but 
certainly healthcare is fundamental to that. The Children's 
Health Insurance Program is a tremendous stride in that 
direction, enacted in a bipartisan way.
    Third, we've got to protect our kids. And we're a long way 
from doing that. Horrific, horrific data on that about the 
failure of our country to really protect our kids.
    And fourth, early learning opportunities. The record there 
is, at best, spotty. Some States do it well, some States don't. 
We still don't have a national commitment to early learning for 
kids.
    If we make progress in the next couple of weeks and months 
on these hearings, I think we will spotlight and focus more on 
at least those four areas.
    This is, I think, a task worthy of a great Nation. We're a 
long way from achieving it, but we do have some success to 
point to, and that's, in large measure, to leadership like that 
demonstrated by Senator Dodd over those 30 years. We're 
grateful for his leadership. We're also grateful for the 
bipartisan approach that I think this committee has taken. 
Senator Alexander spoke to that. And he, as well, can claim 
some credit for the success we've achieved.
    We're looking forward to this hearing and the series that 
you're undertaking.
    Senator Dodd. Thank you very much, Senator.
    And I thank my colleagues, and we'll leave the record open.
    I'm now going to turn--let me introduce our witnesses, and, 
in the order I introduce them, we'll ask them to share some 
comments with us.
    First of all, welcome, to Alma Powell, who's here with us 
this morning, who's the chair of the board of America's Promise 
Alliance, whose mission it is to mobilize people in every 
sector of our country to build the character and competence of 
youth. For decades, Mrs. Powell has been a champion and 
advocate for America's young people. She chairs the advisory 
board for Civic Change, Inc., serves on the YouthBuild U.S.A. 
advisory board, as well. For 11 years, she served as the chair 
of the National Council of the Best Friends Foundation, an 
organization dedicated to improving the lives of young girls. 
And she's been affiliated with the Red Cross, the Associates 
for the American Foreign Service Worldwide, and several other 
very impressive organizations. She has numerous academic honors 
that she's received, is the author of two children's books--and 
I'm the owner of both those, by the way--and which were 
launched with much success.
    We're proud to have you join us here today as you share 
thoughts with us.
    Next to Alma Powell is Elaine Zimmerman, who's been a 
friend of mine for those 30 years we've been talking about here 
this morning. She's the executive director of the Connecticut 
Commission on Children; and hence, the idea. What we've done in 
our State is what we've talked about here this morning. In 
fact, Mrs. Powell will talk about it, as well. And having read 
her testimony--I've read all your testimony. In this position, 
Elaine Zimmerman reviews children's policy and reports to the 
executive, legislative, and judicial branches of our State with 
recommendations for children's legislation and initiatives.
    She has established a reputation, in my State and 
elsewhere, for her understanding of public-policy acumen, 
commitment to addressing children's needs, and bringing 
together unexpected stakeholders in child policy discussions. 
In Connecticut, she's worked on a variety of issues, including 
preschool, school readiness, after-school programs, summer 
reading programs, and a long, long list. She's been a great 
champion of children in our State. And much of what I've done 
here started with this woman, here--so, I thank you, as well--
over the years.
    Jack Lund is the president and CEO of the YMCA for Greater 
New York, the largest YMCA in North America. Jack has been a 
part of the YMCA for the past 30 years, including a program 
director. As New York City's largest private youth-serving 
organization, the YMCA of Greater New York is still growing, 
under Mr. Lund's leadership, with a career track record that 
includes several local Y initiatives that have blossomed into 
national Y programs.
    Mr. Lund is adding new programs to tackle the challenges 
our young people face, not the least of which is childhood 
obesity, that include the YMCA Strong Kids Card, Teens Take the 
City, and the Second-Grade Swim, which is developing vital 
skills and sowing the seeds of a lifetime of fun in the water.
    I congratulate you for that, as well.
    His background and his current positions brings to this 
hearing a valuable community-service perspective.
    We thank you for joining us today, Mr. Lund.
    And last is Dr. Harry Holzer. Dr. Holzer is a professor at 
the Georgetown Public Policy Institute, and an institute fellow 
with the Center on Labor, Human Services, and Population at the 
Urban Institute, here in Washington, DC. He joined Georgetown 
Public Policy Institute as professor of public policy in the 
fall of 2000. He's served as the associate dean, and was the 
acting dean in the fall of 2006.
    He's currently the senior affiliate of the National Poverty 
Center at the University of Michigan, a national fellow of the 
Program on Inequality and Social Policy at Harvard University, 
a nonresident senior fellow at the Brookings Institution, and a 
research affiliate of the Institute for Research and Poverty at 
the University of Wisconsin at Madison. He's also a member of 
the World Economic Forum Global Diversity Council.
    And I suspect some of the things that Senator Sanders had 
to say this morning would ring to you on that subject matter 
you've been involved in.
    Prior to joining Georgetown, Professor Holzer served as the 
chief economist for the U.S. Department of Labor, professor of 
economics at Michigan State University. He teaches a course on 
poverty at Georgetown Public Policy Institute, and his 
qualification for today's hearing is his three daughters--16, 
9, and 9. Mine are 5 and 8.
    In fact, yesterday I was telling my colleagues, coming in--
I returned, after 7 days of going down to Colombia, Ecuador, 
and Peru, and got back very late Sunday night. I've been trying 
to get my daughters' classes to come and visit the Senate. 
Well, as my luck would have it, both decided to come yesterday.
    [Laughter.]
    And so, I had 50 children, 5-year-olds, and their parents, 
for 4 hours in the Capitol after returning from a late night 
coming back from Latin America.
    [Laughter.]
    Anyway, those are the joys of fatherhood, I guess; you get 
to do that.
    Mrs. Powell, thank you for joining us. Delighted to have 
you here with us today. And the floor is yours.
    And, by the way, any statements or comments and material 
that you think would be valuable for us as we set the stage for 
these hearings, we would welcome.
    So, we'll listen to your testimony.

STATEMENT OF ALMA J. POWELL, CHAIR, AMERICA'S PROMISE ALLIANCE, 
                         WASHINGTON, DC

    Mrs. Powell. Well, thank you very much for your invitation. 
And, Senator Alexander, I thank you, both of you, for your long 
history of involvement with the issues of children.
    Today, our Nation faces some very urgent priorities: the 
economy, healthcare, national security, global competitiveness. 
But, I would say that one of the most important issues that we 
face as a nation is one that impacts all of these priorities, 
and that is the well-being of our children. Meeting the needs 
of our most vulnerable youth means building a stronger, safer, 
healthier, and more equitable country.
    To put it very bluntly, gentlemen, we are addressing the 
future of our Nation. Our children will be the inheritors of 
our lives, and they are not prepared, at present, as you 
quoted--where they are in standing with the other children.
    The America's Promise Alliance grew out of the President's 
Summit for America's Future, in 1997. And my husband served as 
the first chairman, as you know.
    Out of that Summit came the knowledge that--of discussion 
with people who were active in working with children--that 
there are five basic things that young people need: a caring 
adult in every child's life, a safe place to grow and learn 
after school, a healthy start, a marketable skill through an 
effective education, and an opportunity to give back. That is 
the basis of the work of America's Promise, with its 414 
partners across America.
    On March 1, my husband and I, with President Obama and 
Secretary Duncan, announced the next phase of our work, which 
is called Grad Nation. There's a terrible statistic that exists 
in this country. Only 70 percent of young people graduate from 
high school, 50 percent of African-American and Hispanic 
students do not graduate from high school. In 2020 and the 
years beyond, we will be a majority-minority country. And if 
they are not educated, what is our future? One-third of the 
young people who go to college do not graduate.
    This is a crucial issue, and it really determines the fate 
of this Nation.
    I applaud you in your support of a commission to study the 
children and the needs of children in the country. We heartily 
support that.
    One of the problems that exists is that we have ADD. We've 
talked about these problems for over 25 years, and they still 
exist. And so, we, at America's Promise, say it is time to 
address these head-on and start making progress in direct 
impact on the young people in this country.
    We know that most of these high-school dropout statistics 
come from just 2,000 schools. And so, across the country we 
will be mobilizing people in communities, and especially in 
those target communities, to work on perfecting the high-school 
dropout rate. This is crucial.
    There is a Masai saying that--when they greet each other, 
they say, ``And how are the children?'' I charge all of us 
that, each day, we have to wake up and say, ``And how are the 
children?'' Today, we would have to answer that the state of 
the children in America is abysmal.
    Thank you.
    [The prepared statement of Mrs. Powell follows:]
                  Prepared Statement of Alma J. Powell
                                summary
    Today our Nation faces many urgent priorities: the economy, 
healthcare, national security, global competitiveness. But one of the 
most important issues we face as a nation is one that impacts all of 
these priorities--the well-being of our children.
    On March 1, I joined President Obama, Secretary Duncan and my 
husband at an event at the U.S. Chamber of Commerce to officially 
embark on the most ambitious initiative America's Promise Alliance has 
ever undertaken. The Grad Nation campaign will mobilize Americans and 
our more than 400 national partners to end the high school dropout 
crisis and prepare our young people for the 21st century workforce.
    The magnitude of this crisis is tragic. One of every three students 
fails to graduate from high school in this country--over 1 million 
students a year. And only about one-third of our high school graduates 
have enough of the skills required for success in college and the 21st-
century workforce. Our children and our economy are in jeopardy.
    But this is a crisis we can solve. We have seen what success looks 
like when sound policies and best practices are paired with strong 
community support. It starts with better schools but we must also 
recognize that many of the roots of the dropout crisis lie in a 
shortage of fundamental supports in the lives of our children. We must 
couple education reform with efforts to ensure that children not only 
have a good education, but also caring adults in their lives, safe 
neighborhoods, after-school programs, access to health care and 
opportunities to help others.
    We must also look at this problem with more focus. We know that 
just 2,000 high schools (12 percent) produce over half of the high 
school dropouts in this country. With our business and non-profit 
partners, we are building powerful, cross-sector collaborations to 
focus needed resources in these low-performing schools and surrounding 
neighborhoods.
    In order to raise the visibility of children in Federal policy and 
solidify our commitment to the Nation's future, we need a coordinated, 
national action plan. A critical first step is for Congress to create a 
National Council on Children focused on re-establishing America as a 
global frontrunner in child well-being.
    I ask that you challenge Congress to work with us to build a strong 
and sustained movement. Individual by individual, community by 
community, we can create a Grad Nation and show our most vulnerable 
young people that America is indeed the land of opportunity.
                                 ______
                                 
    Chairman Dodd, Ranking Member Alexander, and members of the 
committee, thank you for the opportunity to testify on this very 
important issue.
    Today our Nation faces many urgent priorities: the economy, 
healthcare, national security, global competitiveness. But I would say 
that one of the most important issues we face as a nation is one that 
impacts all of these priorities--and that is the well-being of our 
children.
    Sadly, our children are often overlooked when addressing many 
urgent issues of the time. But let there be no doubt--meeting the needs 
of our most vulnerable youth means building a stronger, safer, 
healthier, and more equitable country.
                       america's promise alliance
    As you may know, my husband General Colin Powell was founding chair 
of America's Promise Alliance, the organization I now chair. The 
Alliance grew out of the President's Summit for America's Future in 
1997, where all the living presidents and Nancy Reagan signed a 
declaration stating that: ``As Americans and as Presidents, we ask 
every caring citizen to pledge individual commitments of citizen 
service, voluntary action, the efforts of their organizations, or 
commitments to individual children in need. By doing so, this Nation 
pledges the fulfillment of America's promise for every American 
child.''
    Today, we fulfill that promise through more than 400 national 
partner organizations and their local affiliates--aggressively 
addressing the high school dropout and college readiness crisis that 
plagues this country. The dropout crisis is a dramatic symbol of how we 
as a nation are failing our young people.
                         creating a grad nation
    On March 1, I joined President Obama, Secretary Duncan and my 
husband at an event at the U.S. Chamber of Commerce to officially 
embark on the most ambitious campaign the Alliance has ever 
undertaken--the Grad Nation Campaign.
    Through Grad Nation we will mobilize Americans of all ages, income 
levels and ethnicities--in all 50 States and in communities large and 
small--to end the high school dropout crisis and prepare our young 
people for the 21st century workforce. We will also mobilize our 
national partners and their local affiliates to create powerful, cross-
sector solutions, especially in communities and neighborhoods that are 
home to our most vulnerable children.
    This is a critical moment in time. And it's time to turn a moment 
into a movement.
                      the magnitude of the crisis
    The statistics are tragic. One of every three students fails to 
graduate from high school in this country. That's over 1 million 
students a year. Among minority students, the problem is even more 
severe, with barely half of African-American and Hispanic students 
graduating from high school.
    Lack of readiness for college and the 21st-century workforce is an 
equally serious threat. As we all know, a high school diploma is no 
longer enough in our global economy. Yet only about one-third of our 
high school graduates have enough of the skills required for success in 
college and the workforce. And only 10 percent of minority students who 
enroll in college will graduate. Just 1 in 10.
                        the cost to our country
    The high school dropout crisis not only takes a toll on our 
children, but it also takes an enormous and unsustainable toll on our 
country. Consider the students from the class of 2009. Had all of them 
stayed in school and graduated, our economy would gain more than $320 
billion over their working lives. That's $320 billion in higher wages, 
greater consumer buying power, and increased tax contributions.
    And this is only part of the cost. It does not count the cost of 
remedial education. It does not count the cost of social programs and 
prisons. It does not count the cost to our healthcare system. Because 
high school dropouts on average have more health problems than 
graduates, it has been estimated that our Nation would save $174 
billion in healthcare costs had all of the Class of 2009 graduated.
    Mr. Chairman, this is an economic as well as a moral crisis.
                           a solvable problem
    But I want to make it very clear: this is a crisis we can solve. We 
have seen what success looks like when sound policies and best 
practices are paired with strong community support.
    It starts with better schools. But we must also recognize that many 
of the roots of the dropout crisis lie in a shortage of the fundamental 
supports--or what we call the Five Promises--in the lives of our 
children. In fact, the dropout crisis exemplifies our failure to ensure 
that our children have the building blocks that make for success.
    We support education reform as a keystone to improving graduation 
rates and readiness for college and work. But too many children come to 
school not able to learn. We must couple reform with efforts to 
transform young lives by ensuring that children not only have a good 
education, but also caring adults in their lives, safe neighborhoods, 
after-school programs, access to health care and opportunities to help 
others.
    Over the past 2 years, America's Promise Alliance has been steadily 
building awareness and momentum on the dropout issue--and today the 
Silent Epidemic is no longer silent. We have convened Dropout 
Prevention Summits in all 50 States and 55 additional cities, bringing 
together leaders from all sectors of the community.
    Now we must turn awareness into sustained, results-driven action.
     focus on lowest performing high schools and their communities
    How can we achieve success? We know that just 2,000 high schools 
(12 percent) produce over half of the high school dropouts in this 
country. For that reason, we are focusing special effort on these low-
performing schools and their surrounding neighborhoods.
    With our business and non-profit partners, we are building powerful 
cross-sector collaborations to focus needed resources in these 2,000 
neighborhoods, to strengthen these lowest performing schools, and to 
help our most vulnerable children receive the Five Promises.
    What does it mean to strengthen low-performing schools and low-
resource neighborhoods? It means increasing the presence of caring 
adults who are involved in everything from reading to young children to 
after-school tutoring and mentoring to service-learning opportunities. 
It means empowering and encouraging parents to fulfill their 
indispensable role as active partners in their children's learning. It 
means making sure more young people have consistent access to 
healthcare. It means quality pre-school available to every child.
    It means providing more places after school and during the summer 
where children can be safe and use their time productively. 21st 
Century Community Learning Centers need to be protected and expanded 
because they keep children safe, inspire learning and are a lifeline 
for working families.
    And the focus must go beyond high school students. Half of all 
young people who drop out of high school do so by the 10th grade. The 
majority of those who drop out say they began disengaging from school 
during their middle-school years. And one of the most reliable 
predictors of future dropouts is third-grade reading scores. We have to 
support at-risk children from an early age. And we must stay involved 
every step of the way.
                      national council on children
    We must also look at this problem with more focus. I mentioned that 
the needs of our children are often overlooked as this Nation addresses 
urgent priorities. In order to raise the visibility of children in 
Federal policy and solidify our commitment to the Nation's future, we 
need a coordinated, national action plan.
    A critical first step toward reversing this downward trend is for 
Congress to create a National Council on Children, focusing on 
reestablishing America as a global frontrunner in child well-being.
    A National Council on Children would serve as a forum on behalf of 
children and function as a permanent independent entity within the 
Federal Government. It would conduct a comprehensive study to assess 
the needs of children, submit a report to the President and Congress, 
and make recommendations on how to best address the needs of our 
youngest citizens. Upon completion of the study and issuance of 
recommendations, the Council would annually assess the Nation's 
performance in meeting its goals, and propose additional improvements.
    In 1997, a similar panel proved to be a remarkable success story 
for America's young people, spawning the enactment of the Child Tax 
Credit, improvements to the Earned Income Tax Credit, the creation of 
the State Children's Health Insurance Program, and other initiatives 
that have drastically improved child health and well-being. But today a 
new generation of children once again faces serious problems that 
threaten this progress. The creation of a permanent Council tasked with 
annually assessing the status of children will ensure continuous, 
measurable benefits for our Nation's most precious resource.
                   the civil rights issue of our time
    Mr. Chairman, many say education is the Civil Rights crisis of our 
time, and they are right. Our values are at risk when students' chances 
of graduating from high school are heavily affected by where they live 
and the resources available to them.
    Education is the passport to full participation in the American 
Dream. But right now that dream is being dashed by a harsh reality. 
Millions of our young people have little chance of being part of an 
opportunity society simply because they lack access to the resources 
that would enable them to succeed.
                               conclusion
    The state of our children is not simply a failure of government or 
of schools; it is a failure of all of us. Each and every one of us must 
be part of the solution.
    Today, I ask that you challenge Congress to work with us to build a 
strong and sustained movement. Individual by individual, community by 
community, we CAN create a Grad Nation and show our most vulnerable 
young people that America is indeed the land of opportunity.
    We know what to do. We need focus and commitment. Today it is more 
a matter of summoning the will than finding the way. And we have no 
option but to summon the will--for ourselves, for our children, and for 
our Nation.

    Senator Dodd. Well, thank you very much, Mrs. Powell. I was 
reading your testimony, the longer set of remarks which you 
gave to the committee, and that that statistic--of all the 
schools, there are 2,000--represents only about 10 percent of 
all the schools. While the number seems large, if you didn't 
mention the fact that it represents only a relatively small 
percentage where most of those problems persist--and your data 
and statistics regarding the condition of children--ones in 
poverty, the ones graduating from school----
    I've often said, if I only could fix one problem in 
America--I often get asked by people, ``What's the single most 
important issue that you wrestle with?'' And I've answered the 
same way for 30 years. It's education. I mean, I really 
believe, while everything else is not unimportant, if you get 
that piece right, then everything else begins to have a 
reasonable prospect of a good solution. Get that one wrong, and 
nothing else ever turns out terribly well. You may get lucky 
occasionally on something, but, without the focus on that----
    I thank you immensely for your focus on that.
    Mrs. Powell. Well, we also need to understand that, when we 
talk about school reform, that's only one part of the equation.
    Senator Dodd. That's correct.
    Mrs. Powell. We have to be sure that we're providing all 
the supports that young people need, so that they come to 
school ready to learn. This is our focus.
    Senator Dodd. Yes, totally. And that's what--parents and so 
forth who have that--so, the educational issue carries through 
all the way along.
    Elaine, good to have you with us.

STATEMENT OF ELAINE ZIMMERMAN, EXECUTIVE DIRECTOR, CONNECTICUT 
               COMMISSION ON CHILDREN, HAMDEN, CT

    Ms. Zimmerman. Very good to be here.
    Senator Dodd, Senator Alexander, members of the committee, 
it's an honor.
    I've been asked to speak, in particular, to the issue of 
children and the recession. As the Senator knows, we have tried 
to understand the uncharted territory, when it arrives, for 
children. We studied, deeply, the impact of September 11 and 
homeland security issues on children. We studied Katrina. And 
when the recession began, before people were captioning it, we 
began to look at what it meant.
    There were very little articles, very little information 
out there, but two that we used. One was from First Focus, and 
one was from Ken Land, at Duke. We invited the studies'--the 
authors and economists--to join us in Connecticut. And we 
learned, from First Focus, that, though the economy will turn--
it's pretty much what Senator Sanders was beginning to talk 
about--the economy will turn. Those children who fall into the 
rabbit hole of poverty right now will not recover. In fact, we 
will see, from them, lost wages and poor health into their 
adult years. What we do now, in this decade, has a profound 
impact on a generation.
    And sadly, Don Peck, in The Atlantic, calls this 
generation, now, the ``sinking generation,'' which is part of 
what I'm going to speak to.
    In our country, this is going to cost $1.7 trillion. We're 
going to see 3 million children fall into poverty. Ken Land, at 
Duke, found that the progress made in children's economic well-
being since 1975 is likely to be totally wiped out by this 
downturn. He projects a decline in safety, which we are already 
seeing, and is historic, based on recessionary trends; a rise 
in poverty; education decline; a decline in social 
connectedness--and a report just came out that's showing that 
this generation is notably lacking in empathy; a decline in 
family income; and a significant toll on communities of color. 
We are already seeing black middle-class neighborhoods hollowed 
out; and, though the unemployment gap between blacks and whites 
was narrowing, it has now widened, and we're thrown back to the 
1990s.
    Harvard sociologist William Julius Wilson says, ``We should 
brace ourselves for what is happening now.''
    In our State, the data is pretty staggering. More children 
are hungry, homeless, and living in families under tremendous 
stress. There's been a 30-percent increase in homelessness, a 
33-percent increase in homelessness in the suburbs and in the 
rural sector. This is not poverty as we know it, this is a 
middle-class agenda, crashing. We are seeing one out of five 
children, in our State, under 12, hungry. In the past 2 years, 
there's been a significant increase in infant mortality and 
low-birth weight, which is costing our little teeny State $159 
million a year in unnecessary hospitalizations.
    Speaker Donovan established the first task force on 
children and the recession, and we took this research, and we 
wanted to see, Well, is this really true in our State? We held 
hearings--urban, rural, suburban--throughout the State, for 2 
years. We invited families to come. And they did. Homeless, 
middle class, whatever, they came, and they told their stories.
    The stories are--well, they are staggering. The line that 
did it for me, that led me to travel the State, nonstop, was 
one young man who came to the microphone and said, ``I 
concentrate, each day, on not eating.'' That's our education 
system. On not eating. That's what this child's concentrating 
on. He said, ``In my refrigerator now, there's a half bottle of 
juice and a box of eggs.'' This is what his family has. 
Teachers are observing children steal food off desks.
    We're seeing children say that they need to leave their 
families--the young adults--because they feel the burden on the 
family. We are seeing an increase in runaways, an increase in 
youth leaving families and going to the streets. And the 
children are as young as 13 years old. There's beginning to be 
a spike.
    There's an increase in domestic violence. In our State, 
there's been an increase in murders in households. There's an 
increase of children being left alone because families are now 
juggling three jobs, but making half the wage.
    We're seeing, not only what is becoming almost a national 
experiment in family stress because of this recession, but 
youth floundering for opportunity. The unemployment rate right 
now for youth is as bad as it was right after World War II. 
Young children, youth, are competing with their parents now for 
similar jobs.
    More runaways, more homelessness, and family healthcare 
floundering.
    What we did in our State after 2 years, was passed 
legislation--and actually, the Senate was unanimous, the House 
was overwhelmingly positive--that said when the unemployment 
rate is 8 percent for a duration--for a certain amount of time, 
a few months, this is going to be considered a State emergency 
for children, and we are going to do things differently, 
because a recession is a crisis for children, the same way 
September 11 was.
    And so, we say, when it's 8 percent unemployment, we must 
have a single point of entry for all families, we must have 
coordinated leadership, because we cannot let youth disconnect. 
We cannot have a generation of disconnected youth, so we need 
to make sure there's plenty of leadership opportunities for 
youth, we need to make sure every child is fed, year round; 
that there's enough childcare, because what we learned again 
and again was that homeless families cannot get out of that 
problem until they have childcare; and that unemployed cannot 
find jobs unless they have childcare. And it needs to be of 
quality; it can't be a neighbor or a boyfriend.
    We also said that we needed to make sure that we paid 
attention to competitiveness, and that if there are no jobs 
right now, then let's build up education, and let's do that 
even for welfare recipients so that the people can become more 
competitive instead of throwing them off the cliff when there 
are no jobs at all; that we needed to work across funding 
streams and silos; that whatever needs to be waived right now, 
we should just waive it to allow for a more unified approach; 
and that we needed to maximize Federal opportunities, such as 
the TANF Emergency Fund, which is so helpful for youth 
employment and for service-sector jobs.
    What, interestingly, occurred from all of this was, we 
realized we have some very good policies, as do many States, 
for children, but, frankly, we don't have good systems. We 
haven't worked well enough on creating systems for children. 
You can have a good preschool law, but, if you don't have a 
good early-care and education system, it's actually full of 
holes, eventually, when the economy turns, or whatever. 
Actually, this crisis has led us to say we must focus on 
systems, but we must understand that children come first and 
that this is an economic crisis.
    There were a few other things we learned. One was that it 
was key to focus on prevention, that we had to prevent problems 
as much as we could, rather than enduring just a constant state 
of crisis, that we needed to go much more forward in civics, 
bringing parents in as leaders, because they're going to notice 
the fissures in the system, over anyone else; and once again, 
to make sure youth feel engaged; and that we have to get rid of 
the programs that are not working; that this is no time for 
lackluster programming; that we need results-based 
accountability in all that we do. We're very proud that we've 
moved this legislation.
    This is an interesting generation. This generation is a 
generation that saw itself--it's global, it understands 
technology; it's a generation of the world. It simultaneously 
observed the World Trade Center be bombed. This is the 
generation that saw children jump out of windows. After things 
calmed down--several years--they then watched a city become a 
flood, and they watched children, that looked like them, on 
roofs, with signs saying, ``Help me.'' They then began to think 
that their government wouldn't help them. Then they watched the 
banking industry cheat its own customers. Then they watched 
people begin to question government. And now they're in a 
recession.
    These are children who learned, unlike any other 
generation, to think in a worldly way and a global way. They 
are global children in a sinking boat.
    We need to take the potential leadership and genius of this 
generation and make sure they don't sink.
    Thank you.
    [The prepared statement of Ms. Zimmerman follows:]
               Prepared Statement of Elaine Zimmerman \1\
                                summary
    This testimony describes one State's findings regarding children 
and the recession. It evaluates the impact of the recession on children 
and youth and reveals outcomes across class and geographic regions of 
the State.
---------------------------------------------------------------------------
    \1\ The presenter, Elaine Zimmerman is the executive director of 
the Connecticut Commission on Children which is a strategic policy arm 
and coordinating entity for children in State government. She has 
worked for both the California and Connecticut Legislatures and serves 
as staff vice-chair for Human Services and Welfare for the National 
Conference of State Legislators.
---------------------------------------------------------------------------
    The Connecticut Legislature brought in scholars and economists who 
could inform the policy leadership about implications for the family. 
The research is summarized.
    Seven hearings were held throughout the State to learn from 
families and youth how the recession was touching them. Urban, rural, 
and suburban families spoke to us. Their topics included food, housing, 
violence, child care, safety, education, and dreams for the future. The 
findings are summarized.
    Legislation was crafted after 2 years of research and public input. 
The legislation, which passed overwhelmingly, is discussed. Additional 
policy efforts are also presented including:

    1. A major strategy to reduce child poverty by 50 percent within a 
decade;
    2. A Parent Trust to bring families in as partners in public policy 
related to children;
    3. A focus on prevention for children, rather than crisis; and
    4. A statewide strategy of results-based accountability to ensure 
methods of transparency and high-level strategic planning for best 
outcomes in population trends.
                                 ______
                                 
    Chairman Dodd, Ranking Member Alexander and members of the 
subcommittee, thank you for the honor to testify before you. My name is 
Elaine Zimmerman and I am the executive director of the Connecticut 
Commission on Children. Today I will speak to the current situation 
facing children. I will use Connecticut as an example, but these issues 
face the Nation.
    Connecticut sought to learn what the impact of the recession was on 
children. As we did after 9/11 and then again after Katrina, we reached 
out to families to learn how the current and uncharted context, both 
sociological and economic, is impacting the child. We researched the 
recession and family life. Little on children was emerging at the time. 
There were two core studies: one by First Focus in Washington, DC and 
one by Ken Land at Duke University. We brought them both to our State.
    Michael Linden and Bruce Lesley, from First Focus, shared that the 
recession will send between 2.6 million and 3.3 million children into 
poverty, costing American taxpayers $1.7 trillion. They estimated 
conservatively that the economic impact on Connecticut would be $800 
million annually, with 35,000 children falling into poverty.
    Their research shows that children will not recover when the 
economy recovers. The last two recessions reveal that children who fall 
into poverty during a recession fare far worse, even well into 
adulthood, than their peers who avoided poverty despite the downturn in 
the economy. These children will live in households with lower overall 
incomes, they will earn less themselves, and they will have a greater 
chance at living in or near poverty. They will achieve lower levels of 
education and will be less likely to be gainfully employed.
    Children who experience recession-induced poverty will report 
poorer health than their peers who did not fall in poverty during the 
recession. This difference will persist into their adult lives. What we 
do now will influence a near decade for children.
    Dr. Kenneth Land from Duke University, working in concert with the 
Foundation for Child Development, reported that virtually all the 
progress made in children's economic well-being since 1975 is likely to 
be wiped out by the downturn. Specifically, findings revealed:

    A decline in safety--Children are expected to fare worse due to 
higher rates of violent crime where youth are both victims and 
perpetrators. This is based on historic recessionary trends.
    A rise in poverty--The percentage of children in poverty is 
expected to peak at 21 percent, comparable to that of previous economic 
recessions.
    Education decline--Fewer children will be able to participate in 
pre-kindergarten programs.
    Decline in social connectedness--More low- and middle-income 
families will move or become homeless. Children will experience 
substantial negative impacts on their peer and other neighborhood 
social relations due to the severity of the housing crisis.
    Decline in family income--For all families, median annual family 
income is expected to decline from $59,200 in 2007 to about $55,700 in 
2010.
    Significant toll on communities of color--The child well-being 
indicators show that African-American and Latino children are generally 
more susceptible to the consequences of economic fluctuations. When the 
economy is doing well, their well-being gains are more dramatic. When 
the economy slumps, they are harder hit than their white counterparts.

    This is now validated in The State of Working America by the 
Economic Policy Institute, showing black middle-class neighborhoods 
hollowed out. Black unemployment has risen with job loss, savings are 
drained and retirement accounts are being used to make do now, rather 
than for the later years. The gap between black and white unemployment 
had been shrinking for decades. But the latest recession has thrown it 
back to the early 1990s.
                            one state story
    Already, the evidence in Connecticut is staggering. More children 
are hungry, homeless, and living in families under tremendous stress. 
Fully 28 percent of the State's children have parents with no full-
time, year-round employment. Home foreclosures have pushed many 
families into the rental market, which in turn is driving up rents--
despite falling incomes and rising unemployment. As a result, many 
families won't find housing at all.
    In just 1 year, Connecticut homeless shelters reported a 30 percent 
increase in the number of families they had to turn away due to lack of 
space. Few things hurt children more than housing instability and 
homelessness. Just in terms of academic performance, they increase the 
chances of repeating a grade or dropping out of high school.
    One out of five Connecticut children under the age of 12--102,000 
youngsters--is hungry or at risk of hunger. Food insecurity affects 
child development. The increased odds for cognitive, behavioral, and 
other development delays have implications for educational achievement.
    In the past 2 years, increasing rates of infant mortality and low 
birth-weight infants, along with dropping rates of mothers receiving 
timely prenatal care during the first trimester, suggest that a once-
positive Connecticut trend may be reversing direction, erasing three 
decades of improvement. Low birth-weight costs our State $195 million 
per year in preventable hospitalizations.
    The Commission on Children suggested the Speaker of the House make 
this a legislative priority. Connecticut Speaker Christopher Donovan 
(D-Meriden) established a legislative Task Force on Children and the 
Recession, to be chaired by State Representatives Diana Urban and Karen 
Jarmoc. The bipartisan Task Force includes legislators, economists, 
business, families, philanthropy, health-care, State agencies, and 
child experts.
    Specifically, the Task Force on Children and the Recession:

    <bullet> Identifies trends and research resulting from the 
recession related to housing, employment, homelessness, child care, 
unemployment and makes recommendations to the Speaker on appropriate 
budget and policy action;
    <bullet> Recommends efficiencies and offers ways to streamline 
services and access points for families;
    <bullet> Reports quarterly to the Speaker and leadership of the 
Legislature on key findings; and
    <bullet> Identifies appropriate Federal opportunities.

    After the Task Force learned the research findings from Ken Land 
and Bruce Lesley, we went to the community. Did the community echo what 
the research said? We aligned our hearings with our congressional 
districts so that our congressional leaders could partner and help with 
policy and State response. They all attended.
    We looked at topics that included streamlining services, 
employment, family strengthening during a time of stress, food and 
nutrition, housing and homelessness, youth, and planning for college. 
We asked how communities can help. What should be waived during this 2-
year crisis to help families and children? Can we keep the American 
dream?
    Hearings were held in seven sites--rural, urban, and suburban. The 
recession is a cross-class crisis impacting children in every 
geographic area of our State. The first hearing was led by Congressman 
John Larson's Youth Cabinet.
    The hearings revealed:

    <bullet> Increasing job loss, homelessness, and hunger are part of 
our State's portfolio.

    Latasha Fitzwilliams, 20 years of age, said, ``I concentrate each 
day on not eating . . . in our refrigerator right now there are two 
things: a half-bottle of juice and a box of eggs.''
    Teachers are observing children steal food off desks, out of 
hunger. One community college president described strangers coming to 
her staff meetings to take food from the back table.

    <bullet> A generation of tired young adults.

    Bulaong Ramize of Wesleyan University said,

          ``Along with being a student, I have four jobs on campus. 
        Most of the students at my school work at least two jobs to 
        help pay their way through college. I have friends who've taken 
        semesters off to go back home to help their families . . . it 
        does affect our grades. Are we really going to be the driving 
        force if by the time we graduate, we're already tired of 
        working?''

    <bullet> New obligations to take care of siblings and parents 
alike.

    High school junior Kara Googins said,

          ``I come from a middle class family. We bought a house before 
        the recession started and both of my parents had jobs. My mom 
        lost her job almost 3 months ago. Now my main concern is 
        finding a job. I've applied for jobs, but there aren't any for 
        students after school. I'm worried that one day, I'll come home 
        from school and my dad won't have a job either. It's just 
        difficult because high school students shouldn't have to deal 
        with supporting their families.''

    <bullet> Scattered services and workers not aware of what is 
available.

    Families reported again and again having to go one place for one 
service and another place for another. They had to wait and return up 
to 3 days just to sign up for services. Some gave up.
    State employees did not know the services for families in other 
sectors. In some instances they sent families to Federal offices when 
the State provided the services.

    <bullet> Homelessness and a housing crisis for the middle class.

    Sixty percent of the adults in homeless families have 12th-grade 
educations or higher. Homeless shelters in our State are above 
capacity. Many middle class families are just a step away from falling 
into foreclosure or losing a job. Others have already fallen into a 
loss of home or job.

    <bullet> Families trying to cope without resorting to illegal 
activity.

    Rhonda, a Bridgeport mother of three, testified before us about 
having to tell one of her daughters that she could not go to college 
because the family could not afford the $40 application fee. She went 
to describe how, faced with eviction from her apartment because she 
could no longer afford the rent, she pleaded with government agencies 
for assistance. One said she'd qualify--if she had a drug, alcohol, or 
mental problem. Rhonda had none of those. ''Right now,'' she tearfully 
told the Task Force, ``you do not know how bad I want to use drugs just 
to help my family.''.

    <bullet> Family stressors up with more neglect and violence.

    Families are working more and seeing their children less. Children 
are stressed, but their parents are more stressed. So they do not know 
who to talk to.
    We are seeing more children left alone while parents work or hunt 
for jobs. There is an increase in domestic violence. Connecticut has 
seen an influx of murders in the home. There is an increase in teen 
dating violence.

    <bullet> Youth floundering for opportunity.

    Youth unemployment rate is the highest since just after World War 
II. Youth are competing with adults for the same jobs. This is 
disheartening to both generations. Joblessness for 16- to 24-year-old 
black male youth and young adults has reached ``Great Depression 
proportions.'' Nationally, it was 34.5 percent--more than three times 
the rate for the general U.S. population.

    <bullet> More runaways. More homeless youth.

    Youth told us again and again how they were feeling they should 
leave home. They sought to be one less burden on a struggling family. 
More youth are saying they cannot see their way to college. Some are 
leaving home to relieve parents of the extra costs. The New York Times 
reports government officials seeing an increasing number of children 
leaving home for life on the streets, including children under 13 years 
of age.

    <bullet> Growing demand for lower-cost higher education.

    The President of the Connecticut State University system and the 
State's Commissioner of Higher Education describe more and more middle 
class students leaving the private higher-education system for the 
public system. And many in the public system, who are lower-income, are 
leaving to care for family. The loans are just not enough and the 
family financial burdens are too great.

    <bullet> Family health care faltering.

    The number of low birth-weight babies is on the rise. From 2006 to 
2008, our State averaged 255 infant deaths per year. Of those, three 
quarters occurred before the 28th day of life, and half of those were 
linked to low birth-weight, which is strongly connected to lack of food 
and stressors.
    This is not a poverty issue as we have known it. Twenty-five 
percent of those going to food pantries are working. There is simply 
not enough cash to buy food throughout the week. People are working 
more and making less. (Many are working three different jobs, all at a 
lower wage than what they had been making previously.) Fathers, 
mothers, and grandparents need all the support they can get to access 
additional food for the children, find child care, and learn about 
employment.
    The recession is like any sudden emergency--you need leadership 
fast and resilient to work across agency and boundary to put out the 
fire, wherever the flame is. We cannot stop the recession from its 
course. But we can make sure we understand its impact on children and 
buffer the impact fast and capably.
    After approximately a year of inquiry, the Task Force reported its 
findings and worked with the Legislature to create a policy response. 
Public Act No. 10-133, passed overwhelmingly in the Connecticut House 
and unanimously in the Connecticut Senate. It declares a recession an 
emergency for children. When the unemployment rate is 8 percent, an 
emergency response will kick in. The legislation calls for:

    <bullet> streamlined services, with a single point of entry.
    <bullet> a coordinated leadership team from key departments, so no 
child receives fragmented services.
    <bullet> ensuring all children are fed, year-round.
    <bullet> making child care be available for families so they can 
look for work and train for jobs.
    <bullet> stopping the trend towards low birth-weight babies by 
using proven interventions.
    <bullet> giving youth opportunities for leadership and connection 
in community.
    <bullet> providing more education. If there are no jobs, help 
people go to school, including welfare recipients.
    <bullet> work across funding streams and silos. Allow whatever 
needs to be waived to help operations smoothly help families.
    <bullet> maximize Federal opportunities in employment and training, 
such as the TANF Emergency Fund.
    <bullet> ensure accountability and efficiency. This is not a time 
for lackluster programs or bureaucracy.
    <bullet> improve coordination and integration of services for 
families.
    <bullet> deter homelessness through rental assistance programs.

    Other key lessons:

    Bolster leadership and civics in such hard times. We need to bring 
parents in and give them the leadership tools they need so they can 
tell us what is and is not working. With so many cuts and fissures in 
the system, we need those who care the most about children to inform 
public policy. Parent engagement and family civics are key.
    Create systems for children, not jut single policies. Our systems 
do not work well--we have single policies, one silo after another. For 
example, if we have a good preschool law, but no coordinated system of 
early care and education, our system is pecked with holes.
    Prevent the problems from happening in the first place. Know what 
works. Know what is proven and cost-effective. Complete cost-benefit 
analysis. Get rid of what is not working for what is proven. And then 
bring to scale.
    Federal funds to support families in this recession are key. The 
Federal Government is key in bolstering policies proven to help 
families in times of fiscal uncertainty. Again and again families 
stressed the need for help from government. The TANF Emergency Fund is 
just one example of a Federal initiative to States that helps with 
jobs, building employment partnerships with industry, the State, and 
workers. We have used the funds to create new job training 
opportunities in both manufacturing and the service sector.
    Connecticut has endeavored to address a few additional policy areas 
pertinent to the family and the recession.
    1. Our child poverty legislation sets a goal to reduce poverty by 
50 percent within a decade. National experts were brought together, 
across party and interest area, to tell us what was proven in reducing 
child poverty, what could be replicated and what was most efficient. 
They recommended the policy focus on (a) family income and earnings 
potential, (b) education, (c) income safety nets and (d) family 
structure and support.
    We took their recommendations and created an economic model 
analysis. The Urban Institute found that we could reduce child poverty 
by 35 percent if we: (1) provided child care subsidies to families with 
incomes of less than 50 percent of the State median; (2) provided 
education and training programs to result in associates degrees for 
half the adults with high school diplomas; (3) helped high school 
dropouts get their GEDs; (4) increased employment by 6 percent for the 
unemployed; (5) increased participation in safety net programs by 85 
percent such as food stamps, subsidized housing and LIHEAP; (6) ensured 
child support payments.
    2. Prevention policy--Connecticut now requires an annual prevention 
budget, a shift in expenditures from crisis to prevention for children. 
The Governor reports out in her state of the State on our prevention 
budget. She writes up an annual report on what programs work best in 
prevention for children and which programs are properly coordinated 
across sector and funding stream. Connecticut released a children's 
stock portfolio that details a return on investment specific to our 
State. We treat prevention as a cost savings strategy, with proven 
outcomes, for children and youth.
    3. Parent Leadership Training Institute and Parent Trust--
Connecticut offers parents a toolkit in leadership for children. 
Parents want to partner for the next generation, but lack the civic 
skills to do so. Once they have the skills, it's amazing what one 
parent can do. We now have over 2,000 graduates who are on school 
boards, city councils, advisory committees. After about 7 years of 
this, parents shifted in our State to assets at the policy table--both 
State and local. They have contributed 1.5 million volunteer hours.
    4. Results-based accountability--State leaders in all three 
branches of government are trained in an accountability paradigm. The 
Appropriations Committee does not entertain a request without a 
presentation based on population trends, indicators and impact. If 
there is not a context, analysis, or clear strategy to reverse or 
bolster trends, the work and proposal will not be received.
    Connecticut is the only State in the Nation to report to the public 
on its social state and quality of life. Annually, the public is 
objectively apprised through data analysis on how we are faring in key 
subject areas that cross age and region. From wages to health care to 
housing, we can observe the social State of Connecticut. Eleven 
indicators are offered separately, as well as integrated into a single 
digit number, so that we can trace our overall direction and success as 
a State. We look only at indicators that have a trend line of two 
decades.
                                summary
    This generation of youth and young adults is complex. They were 
born into a broadening world democracy. They learned their numbers and 
letters as we became a true global economy. There was a sea change in 
technology and communications with the Internet. They are ahead of us 
on diversity and integration in how they think and live. Their 
landscape is naturally vast--much vaster than the scope and range we 
grew up with.
    Then they witnessed those threatened by a democratic world, blow up 
our World Trade Centers. They watched people jump out windows and felt 
a nation in shock.
    Then just as the Nation seemed to calm, a city became a flood. They 
saw children and youth on rooftops with signs pleading for help. They 
then began to think that their country could not protect them from 
disaster.
    Just when that crisis calmed down a bit, they watched our financial 
leaders rob its own customers and tip our financial boat over. They 
have watched the public believe and then give up on government. They 
have seen a recession dim the last 2 years and all that they promised 
and international fiscal crisis scrape away their sense of future.
    This is an exceptional generation--complex, deep, exposed, not 
naive. What they will do with all this information--who they will be as 
adults will be ripe for historians. But now we must make sure to lead 
for them--promise what is possible and to help them join us in 
leadership. They are a generation of leaders. Their skill set is beyond 
ours. A sea change has occurred and it is part of their every day 
psyche.
    But the resources and programs necessary for them must remain 
intact so they can be all they can be. You may have read Don Peck's 
disturbing article in the March issue of The Atlantic, entitled ``How a 
New Jobless Era will Transform America.''
    Peck writes,

          ``The great recession may be over, but this era of high 
        joblessness is probably just beginning. Before it ends, it will 
        likely change the life course and character of a generation of 
        young adults. It may already be plunging many inner cities in 
        to a despair not seen for decades. Ultimately, it is likely to 
        warp our policies, our culture and the character of our society 
        for years to come.''

    If only one-third of what he says is accurate, we need to prepare 
now for this generation. Make sure they stay connected. Invest in their 
future. Fund only what works. Create coherent policies and a 
coordinated system. Reduce child poverty. As children and youth are 
often forgotten in national crisis, make sure they are not a second 
thought--too late, too fleeting.
    Thank you.

    Senator Dodd. Thanks very much, Elaine.
    With that, Mr. Lund.

STATEMENT OF JACK LUND, PRESIDENT AND CEO, YMCA OF GREATER NEW 
                       YORK, NEW YORK, NY

    Mr. Lund. Good morning, Chairman Dodd, Ranking Member 
Alexander, members of the subcommittee. I'd like to express 
appreciation, on behalf of the Nation's 2,687 YMCAs, for your 
work to ensure the health and security of the Nation's children 
and families.
    The YMCA is the Nation's leading not-for-profit committed 
to youth development, healthy living, and social 
responsibility. And at the Y, strengthening community is our 
fundamental mission.
    About 35 million children in the United States live within 
3 miles of a Y, and every day we work side by side with our 
neighbors in more than 10,000 communities to make sure that 
everyone--everyone, regardless of age, income, or background--
has the opportunity to learn, grow, and thrive.
    Last year, YMCAs across the United States had a direct 
impact on the lives of more than 20 million Americans of all 
ages and backgrounds. About half of them were kids under the 
age of 18. In New York City, we serve nearly 400,000, half of 
whom are youth and teens.
    By design, YMCAs are diverse as the communities we serve, 
and we strive to meet the unique needs of our neighbors. But, 
at the heart of almost every Y is a belief that kids deserve 
the opportunity to discover who they are and discover what they 
can achieve.
    In each of the five boroughs in New York City, and in every 
congressional district in this country, we have at least one, 
if not several, YMCAs, where kids are encouraged to learn, make 
smarter life choices, develop the values, skills, and 
relationships that lead to positive behaviors, better health, 
and the pursuit of higher education and personal achievement.
    I've been around a YMCA movement more than 35 years. And 
thank you, Senator, for suggesting that it was only 30. But, as 
a Y professional in cities from coast to coast, I can attest to 
the YMCA's transformative impact on the lives of kids. Not only 
kids, but also adults, families, and, for that matter, the 
entire community.
    Today's kids are facing challenges unimagined a generation 
or two ago, and the culprits are not new, and you've been 
hearing about them this morning; they are disturbingly real. 
Unsafe streets, or the perception of unsafe streets, leads 
parents to keep their kids indoors and plugged into video games 
and the Internet. Budget cuts and increased emphasis on 
standardized testing has led to the disappearance of physical 
education from the school day. A lack of sidewalks in some 
neighborhoods mean fewer kids can walk or bike to school. A 
lack of supermarkets and the relative high price of some foods 
has made junk food from the corner store and fast-food outlets 
the only choice for low-income families living in so-called 
``food deserts.''
    The statistics are shocking, almost unimaginable. One in 
three American children are overweight or obese. One in three 
Americans born in the year 2000 will develop type II diabetes, 
which some of our experts call ``the scourge of the 21st 
century.'' And black, Latino, and Native American kids face the 
greatest risk.
    American kids' screen time in front of the television or 
computer exceeds the hours that they are in school. And so, for 
so many kids, the support system has disappeared. In an era 
when the parents of 28 million school-aged children work 
outside the home, only 8.4 million kids, or 15 percent, 
participate in after-school programs. As the After School 
Alliance reported in a recent study, 18.5 million additional 
children would participate if a quality after-school program 
were available in their community. Instead, so many of these 
children are left to fend for themselves, alone at home. They 
need to have access to after-school programs that offer a safe, 
nurturing space for them to learn, grow, and to realize their 
potential.
    At the Y, we offer a range of programs, or perhaps a better 
word would be ``experiences,'' that contribute to closing the 
gap identified in the study that we did, along with Dartmouth 
and the Institute of American values, called Hardwired to 
Connect. It's been entered into the record today. We provide 
the necessary tools to help youth and teens reach their 
potential and develop the values and skills they need to carry 
them into adulthood. Core offerings include childcare, before- 
and after-school care, tutoring, summer camp, civic engagement, 
and leadership development programs.

    [Editor's Note: Due to the high cost of printing, 
previously published materials are not reprinted in the hearing 
record. You may go to: www.Americanvalues.org or 
www.Amazon.com, to order the above referenced study.]

    But, these Y experiences are so much more than meet the 
eye. Consider: childcare and after-school provide safe, 
nurturing environments for children to learn, grow, develop 
social skills, and engage in physical activity; sports and 
structured play not only builds healthy bodies, but also builds 
social and leadership skills; swim instruction reduces the risk 
of drowning, a leading cause of accidental death in children, 
and also instills confidence and a valuable skill that can 
never be taken away.
    Y camps provide a safe, thriving community for young people 
to explore personal interests, build self-esteem, learn values, 
develop interpersonal skills, discover the wonders of nature, 
and develop independence away from their parents, often for the 
first time.
    Civic engagement and leadership programs, like Youth and 
Government and Teens Take the City, which is a model city 
government program we began in New York 5 years ago, they 
enhance knowledge, build character, and give young people the 
opportunity to discover that they can make a positive change in 
their communities and in the world. As we all know, democracy 
must be learned by each generation, and the YMCA shares in that 
responsibility.
    We believe all these opportunities are not just nice things 
to do, but very essential to the healthy development of our 
communities--a community's children--in spirit, mind, and 
body--and access to these experiences should be considered an 
American birthright.
    We can't talk about the State of American kids without 
talking about childhood obesity. Nearly one-third of our 
Nation's children are overweight or obese, putting them at risk 
for a host of chronic conditions, including type II diabetes, 
high blood pressure, elevated cholesterol, and others.
    Along with access to affordable healthcare, it is the most 
pressing health issue facing our children today. As I mentioned 
previously, the Y offers a range of experiences that keeps kids 
moving and educates them about making healthy choices. But, we 
believe we have a responsibility to support individuals of all 
ages to adopt and maintain healthy lifestyles. It extends to 
the entire community. That's why we're committed to working 
with community leaders to influence policy, to increase 
physical activity opportunities, and to improve access to 
healthy foods.
    In New York City, our YMCA has been an active partner with 
Columbia University and neighborhood residents in the East 
Harlem Food and Fitness Consortium. Our collaboration has led 
to the opening of supermarkets in one of the country's most 
underserved neighborhoods, and we're proud to be there.
    Simply put, we need to make healthy choices the easy choice 
by ensuring that our communities have adequate opportunities 
for children, families, and adults to engage in healthy 
behaviors, wherever they live, learn, and play.
    As you move forward in your efforts to improve the health 
of the Nation's children, please know that, with the Y, you 
have a partner with a 160-year track record of building healthy 
spirit, mind, and body, and an on-the-ground presence in 10,000 
American communities to address those pressing social issues.
    Despite the challenges facing our Nation's children and 
youth, we see bright spots every day at the Y, and we're proud 
of our long history in helping children, and individuals of all 
ages, learn, grow, and thrive.
    Thank you for your time.
    [The prepared statement of Mr. Lund follows:]
                    Prepared Statement of Jack Lund
    Good Morning Chairman Dodd, Ranking Member Alexander and members of 
the subcommittee. I'd like to express appreciation on behalf of the 
Nation's 2,687 YMCAs for your work to ensure the health and security of 
the Nation's children and families.
    The YMCA is the Nation's leading nonprofit committed to 
strengthening communities through youth development, healthy living and 
social responsibility. At the Y, strengthening community is our cause. 
About 35 million children in the United States live within 3 miles of a 
Y and every day, we work side-by-side with our neighbors in more than 
10,000 communities to make sure that everyone, regardless of age, 
income or background, has the opportunity to learn, grow and thrive.
    Last year, YMCAs across the United States had a direct impact on 
the lives of more than 20 million people of all ages and backgrounds; 
about 9 million of those were children and youth under the age of 18. 
In New York City, we serve nearly 400,000, half of whom are youth and 
teens.
    By design, YMCAs are as diverse as the communities we serve and we 
strive to meet the unique needs of our neighbors. But at the heart of 
almost every Y is a belief that all kids deserve the opportunity to 
discover who they are and what they can achieve. In each of the five 
boroughs of New York City and in every congressional district in this 
country, we have at least one if not many YMCAs where kids are getting 
more interested in learning, making smarter life choices and 
cultivating the values, skills and relationships that lead to positive 
behaviors, better health, and the pursuit of higher education and 
achievement of their goals.
                  challenges facing children and youth
    With more than 35 years as a YMCA professional in cities from coast 
to coast, I can attest to the YMCA's transformative impact on the lives 
of individual children, adults and families, but also to the 
surrounding community as a whole.
    However, today's children are facing challenges unimagined a 
generation or two ago. The culprits are not new, but they are 
disturbingly real:

    <bullet> Unsafe streets or the perception of unsafe streets leads 
parents to keep their children indoors and plugged into video games and 
the Internet.
    <bullet> Budget cuts and increased emphasis on standardized testing 
has led to the disappearance of physical education from the school day.
    <bullet> A lack of sidewalks in newer neighborhoods means fewer 
kids can walk or bike to school.
    <bullet> The lack of supermarkets and the relative high price of 
fresh fruits and vegetables has made junk food from the corner store 
and fast food outlets the only choice for low-income families living in 
so-called ``food deserts.''

    The results are read in the shocking statistics: one in three 
American children are overweight or obese; one in three Americans born 
in the year 2000 will develop type 2 diabetes some time in their 
lifetime--with black, Hispanic and Native American children facing the 
greatest risk; American kids' ``screen time'' in front of the TV or 
computer exceeds the hours they are in school.
    For many children, support systems have disappeared. In an era 
where the parents of 28 million school-age children work outside the 
home, only 8.4 million K-12 children--or 15 percent--participate in 
afterschool programs. As the Afterschool Alliance reported in a recent 
study, 18.5 million additional children would participate if a quality 
afterschool program were available in their community. Instead, so many 
of these children are left to fend for themselves alone at home and 
need to have access to an afterschool program that offers a safe, 
nurturing space for them to learn, grow and realize their potential.
    In 2003, in response to LARGE AND GROWING numbers of American 
children and young people suffering from depression, anxiety, attention 
deficit and behavior disorders, thoughts of suicide, and other serious 
mental and behavioral problems, YMCA of the USA, Dartmouth Medical 
School, and the Institute of American Values conducted research 
entitled, Hardwired to Connect, The New Scientific Case for 
Authoritative Communities. The research presented evidence that 
indicated children are naturally predisposed to connect with others 
outside their nuclear families, for moral meaning and for openness. 
Meeting this basic, universal need for interpersonal ``connectedness'' 
is essential to health and to flourishing as an individual. But 
surprisingly, our society has fallen short in meeting these essential 
needs for all children, and large and growing numbers of our children 
are failing to thrive, academically, socially, and emotionally.
    The research concluded that such community-based organizations as 
the Y, along with other neighborhood and faith organizations, are key 
to creating the environments and providing the support to improve the 
lives of American children and adolescents. The report also had 
recommendations for what all levels of government, employers, 
philanthropists, foundations, religious and civic organizations, 
scholars, families and individuals could do. A full copy of this report 
and a list of the recommendations is being included for the record.
    At the Y, we offer a range of programs--or perhaps a better word 
would be experiences--that contribute to closing the gap identified in 
the Hardwired to Connect research and building the necessary tools to 
help youth and teens reach their potential and develop values and 
skills that they carry into adulthood. Core offerings include 
childcare; before and afterschool care; tutoring; summer camp; civic 
engagement and leadership development programs such as arts programs 
and Youth and Government; and youth sports and aquatics instruction.
    But these Y experiences are really more than meet the eye. 
Consider:

    <bullet> Child care and afterschool care provide safe, nurturing 
environments for children to learn, grow, develop social skills, and 
engage in physical activity in which they might not otherwise 
participate.
    <bullet> Sports and structured play not only builds healthy bodies, 
but also builds social and leadership skills.
    <bullet> Swim instruction reduces the risk of drowning--a leading 
cause of accidental death in children--and also instills confidence and 
a valuable skill that can never be taken away.
    <bullet> Camps provide a safe, thriving community for young people 
to explore personal interests, build self-esteem, develop interpersonal 
skills, discover the creativity and health benefits of the outdoors, 
and develop independence away from their parents.
    <bullet> Civic engagement leadership programs like Youth and 
Government and Teens Take the City, a model city program we began in 
New York 5 years ago, enhance knowledge, build character and give youth 
and teens the opportunity to discover that they can make a positive 
change in the world around them, and realize the individual talents and 
potential they possess.

    We believe that all of these opportunities are not just nice things 
to have, but rather essential to the healthy development of all our 
communities' children, in spirit, mind and body. Access to this 
experience should be considered a universal American birthright.
                       childcare and afterschool
    Two key areas where Ys lead the way in engaging children and youth 
are childcare and afterschool care. Chairman Dodd, I do not need to 
tell you that these programs are a lifeline for single parents and 
working families, and provide children with a safe place to go after 
school. Your leadership over so many years has proven your great 
understanding and support of our Nation's children and families. With 
TEN THOUSAND sites across the country, the YMCA is one of the Nation's 
largest non-profit providers of childcare and afterschool programs. In 
New York City alone, we serve over 15,000 children in 140 sites during 
the critical 3 p.m.-6 p.m. time period, not simply bridging the gap 
between school and home, but creating an enriching and supportive 
environment for kids to continue to grow in their academic abilities, 
social interaction and physical health and well-being. Our focus on 
each individual's unique assets and talents takes shape in elements 
that promote artistry, emotional development, nutrition and physical 
activity, character development, sports, service-learning, as well as 
critical literacy, math and hands-on science activities.
    We see first-hand the difference an afterschool program makes in 
the life of a child, contributing to their healthy development, and we 
hear it from parents and teachers alike.
    Many afterschool programs--at the Y and in other organizations--are 
made possible through the U.S. Department of Education's 21st Century 
Community Learning Centers funding and we know that many more would 
participate if funding were available. Of the more than 1,200 
applicants in 2006 to the Department of Education, only 325 were able 
to be funded. And fiscal year 2010 funding will mostly go to support 
current grantees. Currently, 207 21st Century Community Learning 
Centers sites are in YMCAs.
    At the New York City YMCA we have six 21st Century programs 
currently operating for a total of $1,478,149. As you might imagine, 
these are not only a very important program to hundreds of kids, but 
they enable hundreds of their parents to continue to work, knowing that 
their child is well cared for.
    We look forward to working with the committee to protect and 
greatly expand 21st Century Community Learning Centers now and in the 
future.
    Early child care provides millions of young children with the early 
learning experiences they need to be successful in their later school 
years. Finding affordable and quality child care remains a daily 
struggle for working families across the country. Given the current 
state of the Nation's economy, parents are losing their jobs, waiting 
lists for access into child care providers are increasing and child 
care providers' salaries are decreasing. Child care needs are growing 
and funds allocated to address those needs are insufficient. We 
encourage Congress to increase funding for Child Care Development Block 
Grants over the current $2.1 billion.
                           health care needs
    In early child care sites and our afterschool sites, we witness 
daily that children have a broad range of health care needs. According 
to researchers at the Georgetown University Health Policy Institute and 
the Kaiser Family Foundation, children need regular preventive care, 
including dental, hearing, and vision care, for their healthy 
development.
    Through the Children's Health Insurance Program or CHIP, Congress 
has made great progress toward increasing access to quality health care 
for children. Since it was first introduced in 1997, CHIP has served a 
vital role in providing our Nation's children with a safety net of 
health coverage that has reduced the rate of uninsured children over 
time. According to the U.S. Census Bureau, the number of uninsured 
children in this Nation dropped to 7.3 million in 2008, less than 10 
percent of our Nation's children--the lowest rate in 20 years. YMCAs 
often work with the social service network in our communities to ensure 
families are on the register--but the system remains complicated for 
families.
                           childhood obesity
    And we cannot talk about the state of the American child without 
talking about childhood obesity. Nearly one-third of our Nation's 
children are overweight or obese, putting them at risk for a whole host 
of chronic conditions that they shouldn't have to worry about until 
adulthood--type 2 diabetes, high blood pressure, elevated cholesterol 
to name a few. Along with access to affordable health care, it is 
likely the most pressing health issue facing our children today. So 
what can we do about it?
    As I mentioned previously, the Y offers a range of experiences that 
help kids move more and educate them about making healthy choices. But 
we also believe that our responsibility to support individuals of all 
ages to adopt and maintain healthy lifestyles reaches beyond our walls 
and our programs. It extends to the entire community. That's why we are 
also committed to working with community leaders to influence policy 
and systems changes to increase physical activity and improve access to 
healthy foods.
    The YMCAs Healthier Communities Initiatives, supported by the CDC 
and the Robert Wood Johnson Foundation, focus on collaborative 
engagement with community leaders, how environments influence health 
and well-being, and the role public policy plays in sustaining change.
    There are nearly 150 communities participating in these 
initiatives--as well as six statewide projects including Connecticut 
and Tennessee. These communities and States are finding that:

    1. Families need access to healthy and affordable foods--we 
encourage Congressional action that gives families access to high 
quality nutritious fruits and vegetables. Several YMCAs have created 
virtual farmers markets that procure healthy foods directly from 
farmers and distribute it to low-income families at a vastly reduced 
cost. Allowing families to use food stamps for programs like these 
would make them significantly more appealing. Increasing the 
reimbursement rates and streamlining the administrative process for the 
USDA's Child and Adult Food Care Programs would encourage more 
nonprofits to take advantage of these great resources.
    2. Second, families need safe neighborhoods for their children to 
play outside and programs that can help children explore nature in 
meaningful ways, both structured and unstructured. Research from the 
Children & Nature Network tells us that green space supports children's 
quality of life and improves their physical, mental and social health. 
Additionally research conducted by YMCA of the USA and funded by the 
National Park Service gives insights into the barriers confronting low-
income minority children and youth to reaching the great outdoors. For 
some urban youth, nature is seen as somewhere ``other than here'' and a 
place that is hard to get to, expensive, and not perceived as relevant. 
Fear, time and not knowing what to do also presented significant 
barriers.
    3. Third, families need to be able to walk their children to school 
safely if the school is nearby--this means safe routes to schools in 
the broadest sense. Communities need to be better connected through 
trails and paths so parents can travel with their kids to various 
destinations (parks, restaurants, libraries, etc.) and get physical 
activity along the way.
    4. Fourth, families need to be connected to community-based 
organizations--like the Y--that provide a safe, healthy and physically 
active environment.
    5. Fifth, families, especially working families, need schools and 
afterschool programs to provide adequate physical activity and healthy 
foods.

    Our Healthier Communities Initiatives have had success in improving 
community walkability and pedestrian safety by changing zoning laws 
that ensure the inclusion of sidewalks in new developments, increasing 
access points to fresh fruits and vegetables by bringing farmers 
markets to communities where healthy foods are not available, and 
influencing policy to re-institute physical education requirements in 
schools and afterschool programs. In New York City, our YMCA has been 
an active partner with Columbia University and neighborhood residents 
in the East Harlem Food & Fitness Consortium, whose work has led to the 
opening of supermarkets in one of the country's most underserved 
neighborhoods.
    Simply put, we need to make the healthy choice the easy choice by 
ensuring that our communities have adequate opportunities for children, 
families and adults to engage in healthy behaviors in all of the places 
where they live, work, learn and play.
                      federal solutions to obesity
    At the Federal level, YMCA of the USA has supported a comprehensive 
childhood obesity bill introduced by Representatives Kind of Wisconsin 
and Bono Mack of California, the Healthy CHOICES Act, which includes 
the Play Every Day Act, an increase in funding authority for the 
Physical Education for Progress (PEP) program, the Moving Outdoors in 
Nature Act and new authority for virtual farmers markets, farmers 
markets and community gardens. We have also supported the Complete 
Streets Act and efforts through the Child Nutrition Reauthorization Act 
to innovate afterschool environments to enhance healthy living 
opportunities.
                           help for families
    We also helped advance, and were very pleased with the inclusion of 
the Community Transformation Grants in health care reform as they are 
modeled after our healthy communities work. In fact the prevention 
provisions in the bill will go a long way toward improving the health 
of children and families and it is essential that community-based 
organizations are engaged at all levels in the delivery of these 
programs.
    We also know that healthy habits start at home. The YMCA's Healthy 
Family Home program sends healthy messages home and provides resources 
and tools for families to take simple steps toward a healthier 
lifestyle. Healthy Family Home focuses on three key areas--Play Every 
Day, Eat Healthy and Family Time. Many YMCAs are incorporating Healthy 
Family Home into their existing programming, but it is also available 
to everyone in every community through the Web at 
www.healthyfamilyhome.org. We launched a PSA campaign with these 
messages in the New York City market earlier this year, and First Lady 
Michelle Obama has even included the Healthy Family Home toolkit on her 
Let's Move! Web site as a resource for parents.
    While American children are certainly facing challenges on the road 
to a healthy, active and productive adolescence and adulthood, 
organizations like the Y are there to support and nurture them. But so 
much more can be done.
    We would very much like to thank this subcommittee, along with 
Chairman Harkin and the entire Health, Education, Labor, and Pensions 
Committee for the many opportunities you've given the YMCA to address 
these issues.
    As you move forward in your efforts to improve the health of the 
Nation's children, please know that in the Y, you have a partner with a 
nearly 160-year track record of building healthy spirit, mind and body, 
and an on-the-ground presence in 10,000 American communities to address 
these pressing social issues. Despite the challenges facing our 
Nation's children and youth, we see bright spots every day at the Y, 
and we are proud of our long history in helping children--in fact 
individuals of all ages--learn, grow and thrive.
    Thank you for your time.

    Senator Dodd. Thank you very, very much.
    Before I turn to Dr. Holzer, some of those, standing in the 
back of the room, there's a bench back here. If some of you 
want to sit down, you're more than welcome to do so. And if 
members come in, you'll have to get up and leave, but in the 
meantime, come on and sit down. If any you back there would 
like to do that, just walk up here.
    Dr. Holzer.

  STATEMENT OF HARRY J. HOLZER, Ph.D., ECONOMIST, GEORGETOWN 
         UNIVERSITY AND URBAN INSTITUTE, WASHINGTON, DC

    Mr. Holzer. Thank you, and good morning, Senator Dodd, 
Senator Alexander, and Senators Sanders and Casey.
    I'd like to make four main points today about the economics 
and the research evidence on child well-being in America and 
how they will be impacted by the great recession.
    My first point. Even in the best of times, child poverty 
rates in the United States are very high, and many millions of 
children live with unemployed parents, and growing up in poor 
households or with unemployed parents has negative long-term 
consequences for these children which often lasts for the rest 
of their lives.
    Now, in 2007, before the recession began, the child poverty 
rate was 18 percent; and over 30 percent, in minority 
communities. Nearly 8 percent of all children, in that year, 
lived in severe poverty, with income no more than half the 
poverty line; and again, much higher rates in minority 
communities.
    Now, when these children grow up poor, and then they become 
adults, they will have lower levels of education, lower levels 
of earnings and employment, higher rates of poverty and single-
parenthood, higher rates of crime and incarceration, and poorer 
health than their middle-class counterparts. This will impose 
costs, not only on those individuals and their families, but it 
creates large negative outcomes and large economic losses for 
the U.S. economy as a whole. I've done some work estimating 
those costs, in an average year, as being worth $500 billion of 
lost GDP, in terms of lower productivity, as well as lost 
expenditures on crime and poor health.
    But, even short-term increases in poverty or parental 
unemployment can have negative long-term effects on children. 
For instance, those whose parents suffer a permanent job loss 
often have more difficulty progressing in school, and have 
lower earnings, themselves, as adults, because of the lower 
resources they have, the stress in their lives, and the weaker 
perceptions of rewards for those who strive for success.
    My second point. This recession, the most severe since the 
1930s, will substantially raise child poverty and the numbers 
living with parents who are permanently unemployed. Researchers 
project that child poverty will rise to nearly 25 percent by 
the year 2012; and in single-parent families, those rates are 
expected to rise to roughly 45 percent. And this recession is 
expected to be not only severe, but persistent. Economists 
project high unemployment rates at least through the year 2015. 
Accordingly, child poverty will also remain high through those 
years, perhaps in the range of 22 to 23 percent, through 2015, 
and declining mildly thereafter. And even among those not poor, 
the fraction of children living with involuntarily unemployed 
parents is now very high, as well, and will continue to be high 
for several years.
    Point No. 3. These high and persisting rates of 
unemployment and poverty will likely scar children and youth in 
many ways, causing them significant long-term damage. And Ms. 
Zimmerman has already alluded to some of this. But, based on 
clear empirical research, we believe that this recession will 
damage educational attainment and earnings for many children 
who grew up in families with high poverty or unemployment. And 
because so many young people themselves will suffer long 
periods of unemployment, their own future rates of employment 
and earnings will also be reduced, because the lost periods of 
work experience during their formative years of career-building 
will not be easily replaced.
    Finally, point No. 4. To limit the damage to children, 
policy responses should focus, first, on bolstering employment 
and income support among their parents, but also on providing 
direct services to children, teenagers, and youth over the 
short run, and indeed over the long run, as well.
    Now, among parents, we first need to ensure access to an 
adequate safety net during this continuing period of poverty 
and unemployment. The American Recovery and Reconstruction Act, 
ARRA, generated important extensions in several safety-net 
programs. Unfortunately, many of these efforts will begin to 
expire by the end of 2010. So, it's important that at least 
some of these programmatic exchanges be extended for the next 
few years, while unemployment and poverty remain high.
    I believe Congress and the Obama administration should do 
more to stimulate job creation in the private sector, through 
targeted tax credits, and also in the public sector, through 
direct public-service employment.
    But, children and teenagers and youth, in school and out of 
school, need direct assistance also. Programs that provide 
important services, such as preschool and after-school care, 
should receive extra funding during this period of high 
unemployment, as should programs focusing on education, 
employment, and training for in-school and out-of-school 
teenagers and young adults. And where we have good evidence of 
successful and cost-effective interventions for low-income 
children and youth, these increases should be permanent, and 
not limited to the period of the recession.
    Now, of course, we all understand the terrible long-term 
fiscal situation that the United States currently faces, and 
our need to address these long-term problems very soon, both 
through enhanced revenues and reducing entitlement spending. 
But, important investments to relieve the serious negative 
effects of poverty on children should not be sacrificed for the 
sake of fiscal balance, because those actions would be penny-
wise, but pound-foolish.
    Sensible investments would add very small amounts to the 
national debt and would at least partially pay for themselves 
over time through higher output and higher tax revenues. I, 
therefore, urge Congress and the administration to take these 
ameliorative steps, in a very urgent environment, to invest 
more in these children, and in teenagers and youth, as well.
    Thank you.
    [The prepared statement of Mr. Holzer follows:]
              Prepared Statement of Harry J. Holzer, Ph.D.
                                summary
    I would like to make four main points today about the well-being of 
children in America and how that will be impacted by the ``Great 
Recession.''
    1. Even in the best of times, child poverty rates in the United 
States are very high, and many millions of children live with 
unemployed parents. Growing up in poor households or with unemployed 
parents has negative long-term consequences for these children, which 
often last for the rest of their lives.
    2. This recession, the most severe since the 1930s, will 
substantially raise child poverty rates as well as the numbers living 
with parents who are involuntarily unemployed. The recession will also 
likely persist for many years, as will the elevated rates of poverty 
among children.
    3. These high and persisting rates of unemployment and poverty will 
likely ``scar'' children and youth in many ways, causing them 
significant long-term damage.
    4. To limit the damage to children, policy responses should focus 
on bolstering employment and income support among parents and on 
providing direct ameliorative services to children, both over the 
short- and long-terms.
                                 ______
                                 
    I would like to make four main points today about the well-being of 
children in America and how that will be impacted by the ``Great 
Recession.''

    1. Even in the best of times, child poverty rates in the United 
States are very high, and many millions of children live with 
unemployed parents. Growing up in poor households or with unemployed 
parents has negative long-term consequences for these children, which 
often last for the rest of their lives. Even before this recession 
began, children had much higher rates of poverty than adults in the 
United States. In 2007, the rate of child poverty was 18 percent, while 
for the overall population it was 12.5 percent.\1\ Nearly 8 percent of 
children (and just over 5 percent of adults) lived in ``severe 
poverty,'' with incomes no more than half the poverty line.\2\ In that 
same year, as many as a third of all children lived with nonworking 
adults for part or all of the year, and many millions lived with 
parents who had experienced involuntary job loss.\3\
---------------------------------------------------------------------------
    \1\ In this discussion, we will use the traditional definition and 
measure of the poverty rate in the United States, rather than a variety 
of alternative measures that are currently under discussion. While 
these alternatives are, in many ways, preferable and more informative 
than the traditional measure, previous research mostly uses the 
traditional measures when calculating the effects of poverty on 
children. The use of one or the other would likely not dramatically 
change our overall findings here.
    \2\ See Income, Poverty and Health Insurance Coverage in the United 
States: 2007. U.S. Census Bureau, 2008.
    \3\ See ``Increasing the Number of Children Whose Parents Have 
Stable Employment.'' KIDS COUNT Indicator Brief, Annie E. Casey 
Foundation, 2009. Regarding rates of involuntary unemployment, we find 
3-year involuntary job termination rates (excluding discharges for 
cause) of about 7 percent for all adults and about 10 percent for high 
school dropouts in the period 2005-07. See Henry Farber, ``Job Loss and 
the Decline in Job Security in the United States,'' Working Paper, 
Industrial Relations Section, Princeton University, 2009. Since younger 
workers tend to have both more children and higher rates of job loss 
than other workers, the fractions of children living with involuntarily 
unemployed parents in each group is no doubt higher.
---------------------------------------------------------------------------
    While we have seen some significant progress during the past few 
decades in raising academic achievement and in reducing exposure to 
violence among poor children, many serious problems remain.\4\ When 
they become adults, children who grew up poor still tend to have lower 
levels of education, lower levels of employment and earnings, higher 
rates of poverty and single parenthood, higher rates of participation 
in crime, and poorer health than their middle-class counterparts. While 
social scientists continue to debate whether it is low income per se 
that drives these results as opposed to the behaviors and 
characteristics of parents who happen to be poor, there is no doubt 
that children growing up in such families have less opportunity to 
succeed in life than those born and raised in the middle class or 
higher. And these negative outcomes create large economic losses for 
the U.S. economy as a whole, due to lower productivity of workers and 
high rates of crime and poor health, as well as the poor individuals 
themselves.\5\
---------------------------------------------------------------------------
    \4\ For evidence on improving test scores over time among different 
categories of children see Thomas Dee and Brian Jacob,``The Impact of 
No Child Left Behind on Student Achievement,'' National Bureau of 
Economic Research Working Paper, 2009. The evidence on declining 
violent crime rates in the United States appears in Steven Levitt, 
``Understanding Why Crime Fell in the 1990s: Four Facts that Explain 
the Decline and Six That Do Not.'' Journal of Economic Perspectives, 
18(1), 2004.
    \5\ See Harry Holzer, Diane Schanzenbach, Greg J. Duncan and Jens 
Ludwig. ``The Economic Costs of Poverty: Subsequent Effects of Children 
Growing Up Poor.'' Center for American Progress, 2007.
---------------------------------------------------------------------------
    Even short-term increases in poverty or parental unemployment can 
have negative long-term effects on children.\6\ For instance, those 
whose parents suffer a permanent job loss often have more difficulty 
progressing in school and have lower earnings themselves as adults. 
These effects are likely attributable to the lower resources, higher 
emotional stress and weaker perceptions of rewards for those who strive 
for success among children whose parents are poor or suffer 
joblessness.\7\
---------------------------------------------------------------------------
    \6\ See Greg J. Duncan. ``Income and the Well-being of Children.'' 
Geary Lecture, Economic and Social Research Institute, Dublin Ireland, 
2005. For a more skeptical view on the role of money per se in the 
lives of children and families see Susan Mayer, What Money Can't Buy, 
Harvard University Press, 1997.
    \7\ See Ariel Kalil, ``Unemployment and Job Displacement: The 
Impact on Families and Children,'' Ivey Business Journal, July/August 
2005; Philip Oreopoulos, Marianne Page, and Ann Huff Stevens, ``The 
Intergenerational Effects of Worker Displacement,'' Journal of Labor 
Economics, vol.. 26(3), 2008; and Marianne Page, Ann Huff Stevens, and 
Michael Lindo, ``Parental Income Shocks and the Outcomes of 
Disadvantaged Youth in the United States,'' in J. Gruber ed. The 
Economics of Disadvantaged Youth. University of Chicago Press, 2008.
---------------------------------------------------------------------------
    2. This recession, the most severe since the 1930s, will 
substantially raise child poverty rates as well as the numbers living 
with parents who are involuntarily unemployed. The recession will also 
likely persist for many years, as will the elevated rates of poverty 
among children. Unemployment rates have more than doubled since 2007, 
and now hover near 10 percent. Among the unemployed, 46 percent have 
been out of work for 6 months or longer, while rates of job loss among 
the unemployed are very high. Joblessness among some disadvantaged 
groups, like teens and adult high school dropouts, is extremely high as 
well.\8\
---------------------------------------------------------------------------
    \8\ See ``The Employment Situation--April 2010,'' Bureau of Labor 
Statistics, U.S. Department of Labor. Among teens, the unemployment 
rate in April was 25.4 percent while the rate of employment in the 
population was 26.8 percent. Among high school dropouts, unemployment 
was 14.7 percent but employment in the population was just 39.5 
percent. High rates of job loss in this recession, and the tendency for 
the long-term unemployed to have high rates of poverty, appear in Wayne 
Vroman, ``The Great Recession, Unemployment Insurance, and Poverty.'' 
The Urban Institute, 2010.
---------------------------------------------------------------------------
    Though we only have poverty data available through 2008 at the 
present time, these data already show rising rates of poverty (19 
percent) and severe poverty (8.5 percent) among children as the economy 
began to tumble.\9\
---------------------------------------------------------------------------
    \9\ See Income, Poverty and Health Insurance Coverage in the United 
States: 2008. U.S. Census Bureau, 2009.
---------------------------------------------------------------------------
    But these outcomes will almost certainly grow worse as data become 
available for 2009 and beyond. Brookings Institution researchers 
project that child poverty will rise to nearly 25 percent by the year 
2012. In single-parent families, these rates are expected to rise to 
roughly 45 percent.\10\
---------------------------------------------------------------------------
    \10\ See Emily Monea and Isabel Sawhill. ``Simulating the Effects 
of the `Great Recession' on Poverty,'' Brookings Institution, September 
2009.
---------------------------------------------------------------------------
    This recession is expected to be not only severe but persistent. 
The President's Council of Economic Advisers (CEA) projects annual 
unemployment rates of 9.2, 8.2, 7.3, 6.5 and 5.9 percent over the 
period 2011-15.\11\ At least the first two of these rates would usually 
be associated with serious recessions, and the others with milder ones. 
Accordingly, child poverty rates will likely remain very high as well--
perhaps in the range of 22-23 percent through 2015 and declining fairly 
mildly thereafter.\12\ Even among those not poor, the fraction of 
children living with unemployed parents is now very high as well, and 
will continue to be over the next several years.\13\
---------------------------------------------------------------------------
    \11\ See Council of Economic Advisers, Economic Report of the 
President, 2010.
    \12\ See Monea and Sawhill, op. cit.
    \13\ See Julia Isaacs, ``Families of the Recession: Unemployed 
Parents and their Children.'' Brookings Institution, 2010. She reports 
that 10.5 million children, or 14 percent of the total, are now living 
with unemployed parents at any moment in time. This implies that much 
larger fractions will experience some time with an unemployed parent 
over the next 5 years, and some of these spells will be quite lengthy.
---------------------------------------------------------------------------
    3. These high and persisting rates of unemployment and poverty will 
likely ``scar'' children and youth in many ways, causing then 
significant long-term damage. As noted earlier, even short spells of 
poverty or parental joblessness can lead to serious negative 
consequences for children; and, if these effects are as persistent as 
current projections suggest, these consequences might be even more 
negative.
    It is therefore likely that this recession will damage educational 
attainment and earnings as adults for the children who grew up in 
families with high poverty or unemployment.\14\ Given that so many 
young people will themselves suffer periods of unemployment, their 
future rates of employment and earnings will also be reduced, as the 
lost periods of work experience during their formative years of career-
building are lost and not replaced.\15\
---------------------------------------------------------------------------
    \14\ See Oreopoulos et al., 2008; and Page et al., 2008. Some 
strong suggestive evidence on how children may suffer permanent 
education and earnings losses when their families are pushed into 
poverty during a serious recession also appears in Michael Linden, 
``Turning Point: The Long-Term Effects of Recession-Induced Poverty,'' 
First Focus, 2008.
    \15\ The terribly high rates of joblessness among all youth, and 
especially minority or less-educated youth, are best documented by 
Andrew Sum et al., ``Dire Straits for Many American Workers: The Case 
for New Job-Creation Strategies in 2010 for Teens and Young Adults,'' 
Center for Labor Market Studies, Northeastern University, 2009. The 
long-term effects of such unemployment on the later earnings of these 
workers are documented for young college graduates by Lisa Kahn, ``The 
Long-Term Labor Market Consequences of Graduating from College in a Bad 
Economy,'' Yale University, 2009; and, for young workers more broadly, 
in Rosella Gardecki and David Neumark, ``Order from Chaos? The Effects 
of Early Labor Market Experience on Adult Labor Market Outcomes.'' 
Industrial and Labor Relations Review, Volt. 51 (2), 1998.
---------------------------------------------------------------------------
    And, in this recession, large numbers of children have already or 
will soon suffer homelessness as well, due to the high rates of home 
foreclosure among the unemployed. Homelessness is particularly harmful 
to children and can have lasting negative effects on them.\16\
---------------------------------------------------------------------------
    \16\ See Julia Isaacs, op. cit.
---------------------------------------------------------------------------
    4. To limit the damage to children, policy responses should focus 
on bolstering employment and income support among parents and on 
providing direct ameliorative services to children, over both the 
short- and longer-terms.
    For a severe recession that will likely persist as long as this 
one, it is important to directly address the income and employment 
deficits experienced by parents as well as the associated need for 
enhanced services among children and youth.
    Among parents, we first need to ensure access to an adequate income 
safety net during periods of poverty and/or unemployment. The American 
Recovery and Reconstruction Act (ARRA) generated important extensions 
and improvements in the Supplemental Nutrition Assistance Program 
(SNAP), Unemployment Insurance (UI), Medicaid and Temporary Assistance 
to Needy Families (TANF) programs that raised both their coverage and 
generosity. Unfortunately, most of these efforts will expire at the end 
of 2010. It is important that these programmatic changes be extended 
for at least the next 3 years or more, if unemployment rates remain as 
high as currently projected.
    Congress and the Obama administration should also do more to 
stimulate job creation in both the private and public sectors. The 
payroll tax cuts designed to spur private job creation that have so far 
been enacted are too small to have much real effect; and public sector 
job creation efforts, including public service employment jobs for the 
poor, are not widely planned. These efforts would help reduce the 
enormous unemployment rates for these populations.\17\
---------------------------------------------------------------------------
    \17\ See Timothy Bartik, ``Not All Job Creation Tax Credits are 
Created Equal,'' Economic Policy Institute, 2010; and Harry Holzer and 
Robert Lerman, ``Time for a Federal Jobs Program,'' Cleveland Plain 
Dealer, November 23 2009.
---------------------------------------------------------------------------
    But children need direct assistance too. Programs that provide 
important services, such as preschool and aftercare programs, should 
receive extra funding during this period of high unemployment. Given 
the terrible long-term effects of homelessness on children, direct 
efforts to prevent homelessness among families with children need 
attention as well.\18\ And, where we have good evidence of successful 
and cost-effective interventions for low-income children and youth, 
these increases in funding should be permanent, and not limited to the 
period of recession.\19\
---------------------------------------------------------------------------
    \18\ See Julia Isaacs, op. cit.
    \19\ See Lawrence Aber and Ajay Chaudry, ``Low-Income Children, 
Their Families and the Great Recession: What's Next in Policy.'' Urban 
Institute, 2010.
---------------------------------------------------------------------------
    Of course, we all understand the terrible long-term fiscal outlook 
that the United States currently faces, and our need to address these 
problems very soon (through both enhanced revenues and reduced 
entitlement spending, in my view). But important short-term investments 
to relieve the serious negative effects of poverty and unemployment on 
children should not be sacrificed for the sake of fiscal balance. Such 
sensible investments would add only miniscule amounts to the national 
debt (and its ratio to Gross Domestic Product) and would at least 
partially pay for themselves over time through higher output and tax 
revenues.\20\
---------------------------------------------------------------------------
    \20\ For instance, additional Federal expenditures of $150B would 
add just 1 percentage point to already high ratios of debt to GDP that 
are forecast for this decade, but would largely or fully offset over 
the longer term by higher earnings and income among the poor and by the 
higher tax revenues these generate.
---------------------------------------------------------------------------
    Senator Dodd. Thank you very, very much, Dr. Holzer.
    I'm going to do something a little out of the ordinary, 
because I'm going to be here for the entire time, but I'm so 
pleased that Senator Sanders and Senator Casey have spent as 
much time with us this morning, and knowing they have 
additional schedules, I'm going to turn to my colleagues first 
for any questions they may have and then I'll finish up, in the 
end, with some additional questions.
    Senator Sanders.
    Senator Sanders. Thank you very much, Mr. Chairman.
    And let me thank all of the panelists for their excellent 
testimony.
    Unlike Chris Dodd, I'm not a nice guy, so I'm going to ask 
you some really hard questions. Let me start off with a pretty 
simple one.
    As a nation--I agree with Mrs. Powell, who described the 
situation regarding our kids as abysmal. I think it's an 
international disgrace, that we have the highest rate of 
childhood poverty in the industrialized world. Why is it that 
countries, like Denmark, Sweden, Norway, have less than 5 
percent of their kids living in poverty and we have 22 percent 
of our kids living in poverty? That's a pretty simple question. 
That's my first question. Why don't we just start with Mrs. 
Powell.
    Mrs. Powell. Part of it is the social structure of those 
countries. In a country like Denmark, for example, where it 
provides services for all of their citizens, in a socialistic 
kind of way, this allows them to provide the supports that 
children need. They are mandated by the State, and they are 
carried out that way. And I think it's probably true in the 
other countries that you mentioned. In a democracy, it's not so 
easy to do that.
    Senator Sanders. You're not suggesting Denmark and Sweden 
are not democracies.
    Mrs. Powell. No. No. No. But, in our form of government, it 
is not so easy to do that.
    Senator Sanders. In a more conservative form of----
    Mrs. Powell. Yes. Yes. But, I would say that their success 
is because of their form of government and their supply of 
social services to the population.
    Senator Sanders. Mrs. Zimmerman.
    Ms. Zimmerman. I had the opportunity to actually live in 
Sweden, and my children went to school in Sweden. And I agree 
with Mrs. Powell, the services were--children received 
healthcare, education was not only a constitutional right, but, 
interestingly, safety was a constitutional right. So, in the 
country's constitution, children have a right to an education, 
with safety. Every school had a bully-reduction team. The first 
thing you signed, as a parent, the second day of school, was a 
sheet saying that you understood what safety meant for your 
child, both in the neighborhood and at the school, what you 
would do if you saw anything unsafe, etc.
    One interesting thing that happened. We, here, talk a lot 
about family structure and family decline as being a core 
factor for children. In Sweden, interestingly, the divorce rate 
is higher than it is here. Women actually, there, are in 
employment opportunities that men are not. There's more female 
physicists, etc. But, in spite of the divorce rate, children do 
better there than they do in this country.
    Senator Sanders. Mr. Lund.
    Mr. Lund. I think those countries have exceptionally low 
rates of immigration. And in New York City, 40 percent of our 
citizens are new Americans. They're new Americans who were born 
somewhere else. That's an American tradition. That's what makes 
America such a special place. But, it's important to understand 
that arriving immigrants find themselves on the lower rungs of 
the economic ladder, and, of course--what we hope----
    Senator Sanders. But, African-Americans are not immigrants.
    Mr. Lund. I don't disagree.
    Senator Sanders. But, they are the lower end, and we're 
hearing the situation----
    Mr. Lund. I'm not suggesting that that's not the case. I am 
saying that----
    Senator Sanders. Immigration is----
    Mr. Lund [continuing]. Because of the high rate of 
immigration here in the United States, that I think that does 
present a challenge.
    Senator Sanders. That is a factor, but you're not 
suggesting that is the whole issue, are you?
    Mr. Lund. I am not.
    Senator Sanders. Yes.
    Mr. Lund. I am not. But, the American tradition is that 
immigrants move up the ladder, as they have for many hundreds 
of years, and it's our job to make sure that that happens.
    Senator Sanders. Dr. Holzer.
    Mr. Holzer. Senator, I would stress two things.
    First of all, there's a much higher level of government 
spending, as a percent of GDP, in those countries. And, of 
course, Scandinavians are willing to live with a much higher 
rate of taxation than American citizens are, and they spend a 
lot of that money on direct services for families.
    But, I would also emphasize the structure of the economy, 
and especially the structure of the labor markets in those 
countries, tolerates much less inequality than we tolerate in 
ours, and a range of institutions and government interventions 
in those labor markets protect them from the massive range of 
inequality that we have in the United States.
    Now, as an economist, I don't believe we can necessarily 
import all of those institutions and regulations into the U.S. 
economy. And, like every economist, I worry sometimes about 
whether institutions and government intervention create 
inefficiencies.
    But, I would say that, even here in the United States, 
there's a whole range of institutions and legislation and 
regulation--higher minimum wages, more collective bargaining, 
government assistance, and subsidies for higher-wage 
employers--all of which I think we could have at a greater 
level in the United States, that would start to reduce some of 
the extremes of inequality that we tolerate in America.
    Senator Sanders. Dr. Holzer, you made a point about being 
penny-wise and dollar-foolish. If we ignore kids--if, as Mrs. 
Powell said, 70 percent of our--if we lose--30 percent of our 
kids graduate high school; many of these kids are going to end 
up in jail, and many of these kids are going to end up in 
government assistance. Isn't one of the differences between 
other countries and our own is that they invest in their kids 
with strong childcare, with strong healthcare. And, at the end 
of the day, they have more productive, taxpaying citizens, 
rather than 3 million people, as we have, ending up in jail, at 
$50,000 a shot. I think it costs more money to keep somebody in 
jail than send them to Harvard University. Is that sensible?
    Mr. Holzer. Yes, Senator, I agree with that. We pay much 
higher costs down the road, dealing with the effects of 
incarceration, poor health----
    Senator Sanders. Poor health, right.
    Mr. Holzer [continuing]. Poor health is enormously 
expensive. Low productivity.
    Senator Sanders. Now, when we talk about obesity, is it--
and Mr. Lund made a very important point about that--is it also 
fair to say that you're going to see a disproportionate amount 
of that among lower-income people?
    Mr. Holzer. There's no question about that.
    Senator Sanders. So, it becomes a class issue, and not just 
an abstract health issue.
    Mr. Holzer. That's right. Now, the one thing all four of 
us, I think, agree on is that, when we make those investments, 
we want to make sure that they're cost-effective. We want to 
make sure that there's been good evaluation research, because a 
lot of things don't work. And, of course, I also agree that the 
role of parents to teach responsibility has to go hand in hand 
with public support. Those are not mutually exclusive.
    Senator Sanders. Right.
    Mr. Holzer. It shouldn't be one or the other; it should be 
both.
    Senator Sanders. OK.
    Thank you very much, Mr. Chairman.
    Senator Dodd. Very good.
    Senator Casey.
    Senator Casey. Thank you, Mr.----
    Senator Dodd. By the way, let me just say that--about both 
Bernie Sanders and Bob Casey. While I'm kind of winding down a 
career here, both of these individuals have expressed a strong 
interest in this subject matter, and I'm pleased, as I leave, 
knowing there'll be a couple of people around here who care as 
much about these issues as they do--and both Senator Sanders 
and Bob Casey, particularly, have shown a strong interest in 
the matter.
    I thank you immensely for that.
    Senator Casey. I want to thank the Chairman for his 
leadership on these issues all these years. And when he leaves, 
we're going to figure out a way to keep calling him back for 
help, over time, because we'll need his help, because these 
challenges are enormous. And we're going to keep calling upon 
you, no matter what you do next.
    I do want to note, for the record, something, in a 
lighthearted way, but it's significant--the chairman of a 
committee allowing lower-echelon members to ask questions 
first, that never happens around here.
    [Laughter.]
    Providing seating for members of the audience, that doesn't 
happen too much around here. But, we're grateful.
    And I wanted to make two points before asking a broad 
question. Not an easy question to answer, but, I think, one 
that should be on the table.
    The two points I want to make first, though, are the point, 
made earlier by Dr. Holzer, about the recession, joblessness, 
the economy, or lack of enough jobs, to put it simply, having 
an impact on children--long-term, short-term. We sometimes 
forget that. But, those of us who are advocating for programs, 
programmatic increases, new strategies as it relates to early 
learning or child poverty or nutrition or childcare, a whole 
range of issues that relate to kids--we sometimes forget that 
the best--sometimes the best strategy is just job creation, and 
especially now. I think we learned, in the 1990s, as a 
country--and I think a lot of Democrats learned this--that 
making the pie bigger is actually better than trying to fight 
for ever-dwindling slices of the pie.
    So, economic growth and job creation have to be central to 
what we're doing. And I think there's some good news there, by 
the way, not often emphasized here. But, the Recovery Act--the 
two words, ``recovery'' and ``reinvestment''--we're going to be 
seeing the benefits of that over time.
    Just a year ago, in January, February and March of last 
year, we're losing at least 600-, and, in several of those 
months, 700,000 jobs every single month. That has reversed, so 
we're actually in positive territory, even though the 
unemployment rate is still unbearably high.
    That strategy has paid dividends. The Recovery Act is not 
real popular now. In 15 years, it's going to be wildly popular. 
But, it'll take a while for people to see the full effects of 
it.
    Creating economic growth is central to this whole strategy.
    Second, we have to recognize--I could stand here and--and a 
lot of us could--and say, ``We ought to increase this program 
or that program by X amount of dollars, and increase taxes on 
the wealthy, to do it.'' I think a lot of us think the wealthy 
in this country have not paid their fair share, especially in a 
time of economic hurt. But, we have to assume that, for the 
near term, that the reality of extra revenue won't be there--or 
at least we have to have varying scenarios. We want to have a 
strategy where we have more revenue to make these investments. 
We might want to have an intermediate strategy.
    But, let's assume, for purposes of this broad question, 
that we have limited revenue, or at least a lack of political 
will in Washington, to make the investments that a lot of us 
want to make. In that scenario, in that bare-bones scenario, 
how do we prioritize, here? Literally in the next year or two, 
how do we prioritize? If the patient is on the table, with 
multiple injuries, how do we prioritize on these issues? Do we 
say, ``We can't invest in this strategy now, we have to wait on 
that, but we have to attack hunger and homelessness,'' for 
example? Or do we say, ``No, we can't afford to wait on 
investments in early learning, we've got to do that now''?
    I want to get the sense--in a very limited time, I know--
but the sense of how we prioritize, with the realization that 
we shouldn't just limit ourselves to that bare-bones budget. 
But, I think it's a reality we have to confront.
    Mrs. Powell, do you have----
    Mrs. Powell. Well, it's hard to know how you pick out one 
thing first and say, ``This is''----
    Senator Casey. Right.
    Mrs. Powell [continuing]. ``What we have to do.'' My 
thought on the subject is that, as we approach each one of 
these problems that we have, fiscally and otherwise in the 
country, we have to keep uppermost in our mind the impact that 
it has on children. Too often the programs that support 
children are the first ones that are cut. And this goes a long 
way to producing the situation that we have.
    So that, in thinking about what you're doing, money is not 
the complete answer. We have to energize the will of the 
American people, with the support of our congressional leaders, 
to address the needs of young people.
    As far as children are concerned, all of those issues are 
important. There's no one place to start. Just be conscious, as 
you are making appropriations, etc., that we do not cut the 
programs that support children, or do not cut them as deeply, 
as they are cut.
    Senator Casey. Mrs. Zimmerman.
    Ms. Zimmerman. Senator Casey, our State passed a law saying 
that we needed to reduce child poverty by 50 percent within 10 
years. Once that law was passed, the challenge was, What do we 
do first? What's cost-effective? What do we do, with limited 
dollars?
    Some of the findings are germane to your question--we 
brought together the right, left, and center best experts in 
the country on poverty reduction. And I had the privilege of 
staffing this process. And we said to right, left, and center, 
very famous people, ``We're only going to do what you agree on. 
Anything you disagree on, we're not bothering with.'' They were 
to meet for X number of times. They got so engaged, they met by 
phone continuously. They recommended that we focus on family 
income and earnings potential, education, income safety nets, 
and family structure and support. Those were the five areas.
    Then we brought in the Urban Institute and said, it's part 
of your question,

          ``Given limited funds, and given time constraints and 
        our law, that we're trying to reduce poverty by 50 
        percent in 10 years, can you do an economic model 
        analysis for us and tell us what we should do first, or 
        what we should combine so the ingredients combust in 
        the best way?''

    And they said the following: Provide childcare subsidies to 
families with incomes of less than 50 percent of the State 
median income; provide education and training programs to 
result in associates degrees for half the adults with high 
school diplomas; help high school dropouts get their GEDs; 
increase employment by 6 percent for the unemployed; increase 
participation in safety-net programs by 85 percent, such as 
food stamps--so, feed people--and LIHEAP and subsidized 
housing; and last, ensure child support payments.
    Now, some of those are costers, but many are not; many are 
really making sure that we pay attention to education.
    Senator Casey. So, you had a strategy and you had goals.
    Ms. Zimmerman. There is a peer strategy here, a clear 
report. Sometimes, for example, we know now that preschool is a 
good thing--quality preschool--and home visitation is a good 
thing. But, the truth is, when you've had a child who's had 
both home visitation and preschool, that child does much 
better. So, we need to be asking, not just which policies, but 
which do we combine.
    Senator Casey. I'm on borrowed time, by the way, so I will 
be----
    Mr. Lund. Senator Casey, I think you hit the bull's-eye 
when you said ``jobs.'' And, you know, one of the things those 
of us who have spent a career in social services have realized 
along the way is, if, at the end of the day, a family is as 
impoverished as they were at the beginning of the day, then 
we're not doing enough. And so, our strategy, in addition to 
providing services, also includes an economic development 
strategy. We're building YMCAs in poor neighborhoods. And when 
we do that, we provide employment, we tend to be a community 
anchor, we provide a lot of services, and we attract additional 
investment. And we're doing that over and over again in places 
like the Rockaways and Coney Island, and it's a strategy that 
seems to work for us.
    Senator Casey. Thank you.
    Mr. Holzer. Senator, I'd like to start by answering your 
question, by actually focusing on the budget situation, because 
I think it is widely misunderstood in this city and across the 
country.
    We have serious budget problems in the United States, but 
we don't have a severe budget crisis in the short run; we have 
a long-run budget crisis. As every student who's ever taken a 
macroeconomics class knows, it's not only inevitable that 
you'll have deficits during a recession, it's a good thing; it 
helps stimulate the economy. Our problem is the long run 
projections.
    Similarly, nondefense discretionary spending is only one-
eighth of total Federal spending in the United States, and it's 
been declining as a share of GDP for decades. The problem is on 
the entitlement side, especially the costs of the retirement 
programs, and on defense and homeland security spending.
    I think we should, first, find where the real problem is, 
and start to make progress addressing those long-term budget--
and not squeeze nondefense discretionary spending, especially 
those parts that are important investments.
    Now, in terms of what I would invest in, direct job 
creation, both in the private and the public sector; for 
children: education, healthcare, and nutrition; and for 
teenagers and youth: higher education, employment, and 
training. I think those are very, very high priorities. We 
shouldn't cut corners on those programs. Again, wherever 
there's evidence of clear cost-effectiveness, we should make 
those investments, and make the appropriate budgetary savings, 
where they belong, where the problems really exist.
    Senator Casey. Thank you.
    Senator Dodd. Thank you very much, to my colleagues. Those 
were very, very good questions.
    I want to go back to Mrs. Powell, in your testimony, you 
talked about a national council on children and youth. I think 
you're hearing how benefited we have been in Connecticut 
because, a number of years ago, we established a permanent 
Commission on the Status of Children. And so, rather than--20 
years ago was the last time we really looked, nationally, at 
the condition of children. It was a commission formed in 1987, 
began to do its work in 1989, made a report 1991. And as a 
result of that, there were quite a few initiatives that 
actually were adopted at the national level--tax credits for 
children--so there were a whole lot of things that came out of 
that commission, which I think helped and benefited. Whether it 
did enough or not is obviously a legitimate question. But, 
nonetheless, they produced some results. But, it was a 
temporary commission, and we've had these commissions.
    And the fact is--I even hesitated to make this suggestion, 
because too often I can almost hear the collective yawn of the 
country, ``My lord, another commission. Just what we need in 
the country, another commission to form. We have commissions on 
everything. Rather than address a problem, we form a 
commission.''
    But, I think the idea of doing exactly what we did in 
Connecticut--and I think your response to Senator Casey's 
question about, ``How did Connecticut begin to address this?'' 
is a good example of how this can work, where, instead of just 
sort of collecting data and information that sits on a shelf 
somewhere, what we did in the State is actually, then, in a 
vibrant and robust way, invite very disparate people, 
ideologically across the spectrum, to begin to look at these 
issues, to sort of strip out the ideology from the debate.
    This really ought not to be an ideological debate. It's a 
ludicrous commentary on our times that we're unable to come to 
some decent conclusions about what needs to be done to get this 
right. We're so blessed with intelligent, thoughtful people in 
this country, on an awful lot of issues, that this is one that 
really deserves that kind of consistent attention.
    And so, I wonder if you might just comment, beginning with 
you, Dr. Holzer, on this idea of having--I think we've got to 
start someplace. And not that it's going to necessarily provide 
the answers, but if you start asking the right questions, and, 
in an informative way, begin to think about these matters on a 
regular basis, a seamless way, year in and year out, it seems 
to me you raise the possibility of getting better results.
    What is your attitude about a national council, as Mrs. 
Powell has suggested--or commission, whatever you want to call 
it?
    Mr. Holzer. Senator, I would strongly support the creation 
of such a commission. I think, first of all, gathering ongoing 
research, not only on the effects of child poverty on children, 
but also on what works and what doesn't, on cost-effectiveness, 
I think, remains an ongoing challenge. And I think a commission 
like that could collect the information and disseminate it to 
the public in a way that could really matter.
    I'll cite one precedent for that, actually, in the last few 
years. The Center for American Progress had a Commission on 
Reducing Poverty that issued what I thought was an outstanding 
report, in the year 2007, which then led them to create a 
campaign called Half in Ten, reducing the rate of child poverty 
in half over the next 10 years. Of course, unfortunately, 
because of the economy, it's going to go the other way. But, I 
think that's an example of how a good report and research can 
be used effectively to create a policy agenda that makes a lot 
of sense. And I would certainly support other efforts in an 
ongoing commission to make those efforts.
    Senator Dodd. Mr. Lund, any quick comments on that?
    Mr. Lund. Well, Senator, you answered the question with 
your question. And that is, if we have so many commissions--and 
I'll suggest everything from artichokes to xylophones--how 
could we not have a commission that focuses exclusively on 
children?
    Senator Dodd. Well, let me ask--I'm going to go back, 
because I think there's a tendency to think that things have 
just gotten in a clear trajectory, in terms of child poverty. 
But, Dr. Holzer, you've done some research, and--I don't know 
if you know the answer to this, or not--but, when was the 
lowest level of child poverty? And why did that occur? At least 
in recent times.
    Mr. Holzer. Senator, I don't have the exact numbers here, 
but in recent decades, the lowest rates were likely at the end 
of the last decade, in the period of 1999 to 2000, because 
child poverty tends to track adult poverty, and adult poverty 
tracks the strength of the economy. And so, overall poverty--
given all the limitations of how we measure poverty, which 
itself is controversial--but, overall poverty fell to the rate 
of about 10 or 11 percent at the end of that decade, because of 
the booming economy, and also because efforts were made for the 
economic growth and productivity to be widely shared at all 
parts of the spectrum. I think, actually, welfare reform played 
some positive role in getting more parents work, but it was 
welfare reform, accompanied by a range of supports for low-
income workers, like extensions of childcare, your income tax 
credit, etc.
    Now, even in the best of times, child poverty remained too 
high. And in those years, I believe child poverty was still 15, 
16 percent. Nevertheless, the economy is a very important 
determinant of those trends over time, as well as policy 
changes.
    Senator Dodd. Well, the poverty was around 15 percent in 
the late 1960s and early 1970s, rose in the 1980s, to around 
20, and then declined again in the 1990s. But, it's been 
interesting, how it's moved. And again, you can begin to track 
where--again, going back to the early days--in fact, Head 
Start, with Ed Zigler, and so forth, when that--1960s and so 
forth, the efforts that were made--begin to involve people in 
some of these areas. So, it's actually had--there's a direct 
correlation, it seems to me, at various times; not that it's a 
perfect correlation. But, where the Congresses and 
administrations and the country as a whole has focused some of 
its time and attention and resource allocation on children and 
their families, we've actually made impacts on this thing. I 
think there's an assumption that, despite the investments at 
various times, everything just increased in a straight line. 
And, in fact, it's quite the opposite.
    There's a direct correlation. When we made investments, we 
actually had an impact on all of this. When we failed to do it, 
it moves again.
    There's a history, here, that we can look at, that begins 
to demonstrate that well-thought-out ideas involving both 
public/private nonprofit sectors can make a difference. And 
sort of getting back to that notion again, tapping into all of 
this talent and ability that is out there, we can make that 
kind of a difference.
    I'm very interested in that.
    Mrs. Powell, the statistic that jumped out at me in your 
prepared remarks, and I just haven't been able to get it out of 
my mind, since yesterday, reading your comments--10 percent of 
minority students who enroll in college--only 10 percent 
minority students who enroll in college will graduate. Ten 
percent. Only 10 percent who enroll in college will graduate. 
Just fill me in. Why is this occurring? There are some obvious 
answers.
    Mrs. Powell. There are a number of answers. Recession plays 
into it a great deal. Needs to drop out of school and go to 
work and have an income. The cost of higher education often 
weighs on young people. They simply cannot pay for the 
education that is offered to them, and have to drop out.
    Last month, I spoke at Kentucky State University's 
commencement. That institution has a program to bring people 
back who have not completed their college education, allowing 
them to enter, at whatever state they are in their careers, and 
earn that college degree that they need. But, there are very, 
very many--most of them, financial--reasons for people not 
completing college.
    Another problem exists. We spend a lot of time on 
underprivileged children and children in inner cities, pushing 
them to college, preparing to get them there, and then, once 
you get them there, you leave them.
    Senator Dodd. Yes, right.
    Mrs. Powell. For many of them, this is a culture shock, and 
they're not able to function in that environment without 
support.
    The Harlem Children's Zone, in their support of young 
people in their amazing graduation rates that they have in the 
area that they cover, all of those children that go to school, 
go to college, have a mentor that stays with them through their 
college career. And this is often what is necessary for 
underprivileged children to function in a higher academic 
system.
    Senator Dodd. Yes. Let me ask Elaine Zimmerman--and, again, 
ask those who want to jump in, here. The YMCA obviously does 
this, so, in a sense, you've already commented on your answer 
to this question. But, I wonder how we can, at every stage or 
level of our government involvement, encourage more parental 
and community involvement with young people.
    This is what, again--you don't want to oversimplify this, 
but at the root of it--because, as Ms. Powell, said--long 
before a child enters that preschool or kindergarten, it all 
begins.
    And parents want to be good parents. I mean, they begin 
with the notion--it's just unnatural for a parent not to care 
about their children. So, begin with that notion. You're not 
beginning with people who don't care about their offspring. 
They do. Deeply.
    The question is, How do we nurture that at a governmental 
or community-based level--to nurture that natural instinct of a 
parent to want to see their children have a better life than 
they do, at least that they'll be protected and secure? We just 
don't seem to have done a very good job of that. And how can we 
do a better job of that?
    Mrs. Powell. In communities, providing programs and 
facilities for new parents. Again, I referenced the Harlem 
Children's Zone that runs a parenting class, and volunteers go 
out and seek people on the street, ``If you're pregnant or 
pushing a stroller, come to the Baby College.''
    Senator Dodd. Yes.
    Mrs. Powell. There, they have a training program on how to 
be a good parent. I don't know how we institutionalize this, 
but as we, at America's Promise, work with communities on their 
high school graduation rates, that is part of it, of helping 
parents understand what it is they need to provide to their 
children, and working with programs within communities so that 
they can have this ability.
    Senator Dodd. Mr. Lund, let me ask you--because the YMCA 
has had a great tradition for years. I've often thought, do 
you--talking about mentoring in schools, for instance, early 
stages--that an awful lot of parents had bad experiences 
themselves in school--dropped out, whatever else--so that that 
environment of a school setting can be an intimidating venue, 
as parents, themselves. And yet, to the extent we all know 
that, with Head Start, 80 percent--in fact, it's under law--
requires that there be parental involvement with Head Start 
children. We get about 80 percent participation. By the first 
grade, on average in this country, there's less than 20 percent 
participation by parents in the education of their children. 
Just drops off like a cliff.
    Instead of mandating these things, which I think is a bad 
idea--to the extent we could get other parents or other people, 
volunteers, such as you see--those home visits can make a huge 
difference. Instead of inviting, necessarily, the parent to 
come to the school in that--early stages, but actually getting 
parents to visit other parents in their home settings, so you 
begin to tear down the barriers of that venue being an 
intimidating place--I wonder if you've ever tried anything like 
that, and what success you may have had with it.
    Mr. Lund. We've had a lot of success with it. And I think, 
as Mrs. Powell said, the Harlem Children's Zone, Boys and Girls 
Clubs, the YMCAs, we demystify the institution. We're a safe 
place, not just for kids, we're a safe place for their parents, 
as well.
    In New York City, teenage pregnancy is an epidemic. And the 
good programs are programs that require young parents to 
participate in parent education programs. It's not that they 
don't want to do a good job for their kids; they just don't 
know how.
    Senator Dodd. Yes.
    Mr. Lund. And so, I think there's a real role for private-
sector organizations to play in this regard, because we really 
are a destination for people that live in our neighborhoods, 
and we're seen as a lot safer than the schools.
    Senator Dodd. Elaine, you wanted to make a comment?
    Ms. Zimmerman. Yes. There is an important sentence, that is 
a familiar sentence around the country, which is, ``But, I'm 
just a parent.'' Very frequently heard. What we've done in this 
country is, we say that parents are children's most important 
teacher, but we've marginalized parents since about revenue-
sharing time. And we service parents, but we don't treat them 
as partners.
    As soon as you shift and begin to treat parents as 
partners, they come back. And in our State, as you know, we 
began an effort to teach parents how change happens for 
children, and to invite them to the policy table, to invite 
them to participate. The Parent Leadership Training Institute 
in our State, now fully diverse, cross-class, has over 2,000 
graduates, with parents now on school boards and city councils, 
bringing other parents to the table, bringing parents to 
libraries. We've shifted the attitude toward parents, and 
parents have come forward, the poorest of parents.
    What I've learned is that parent engagement is actually a 
civic issue, and we have overserviced and distanced parents so 
they do not believe that they have a right. ``Just a parent'' 
is a sentence that says that they've become a marginalized 
constituency. That's our fault.
    Mrs. Powell. One of the problems that exists--in Head 
Start, parents are encouraged to be a part of that, but once 
the child goes into first and second grade, the parents are 
pushed aside.
    Now, part of the problem is, a classroom teacher doesn't 
have time to be engaging a parent as well as a child. But, 
somehow we have to keep those parents engaged throughout the 
child's school career, and by making them a part of it.
    That's what PTAs are supposed to do, but we all know that 
they're not always as well attended as they should be. You're 
usually talking to the choir when you're talking to parents in 
the PTA.
    But, within social organizations, like the YMCA and other 
neighborhood things, like THEARC, in southeast Washington, 
reaching out to parents and making them a part of the programs 
that are going on will go a long way to keeping parental 
involvement.
    Senator Dodd. Yes.
    Mrs. Powell. They do not hand over their responsibility to 
someone else.
    Senator Dodd. I'm from a large family, by today's 
standards; not so large when I was growing up--one of six. And 
two of my siblings are teachers--one at the university level, 
at Georgetown, in fact; and a sister who taught for 41 years in 
the public school system, started out in the American 
Montessori system--Nancy Rambush, in the late 1950s. And when 
she finally retired, teaching the inner city of Hartford, CT, 
it was just overwhelming.
    What we ask teachers to do, having now watched--well, 
having--of course, I've been teased in--someone once said, 
``Well, you had children rather late.'' I said, ``I decided to 
have my own grandchildren.''
    [Laughter.]
    With a 5-year-old and an 8-year-old.
    [Laughter.]
    But, going and watching how hard teachers work. They work 
very, very hard. It is incredible, the amount of energy you 
need in a room full of 5- or 8-year-olds, for 6 or 7 hours in a 
day--it just takes a lot. But, they've been asked to assume so 
many additional responsibilities, and it's overwhelming to 
them. And so, there's an exhaustion that's taken over among the 
teacher corps, particularly in areas where they're asking to 
take on a lot of--well, you don't get a lot of parental 
involvement. There are not a lot of people showing up. There's 
not a lot of field trips where people have the time or the 
ability to go along, or even how to do it. We've got to figure 
out a way to do this, other than overloading----
    Mrs. Powell. Add to that the problem that teachers don't 
get paid enough for what they do.
    Senator Dodd. Yes, exactly.
    Mrs. Powell. A teacher in our society is probably the most 
important person that assures the success of this country. If 
we don't have teachers, we don't have anybody who knows how to 
do anything.
    Senator Dodd. And the burnout is just overwhelming.
    Mrs. Powell. The burnout is overwhelming.
    Senator Dodd. Overwhelming. So, I always worry--sometimes, 
when this thing--we've kind of shifted again, but somehow we've 
got to figure out a way to balance this. And I think that--
that's a great line, Elaine; ``Just a parent,'' I think says an 
awful lot.
    Mr. Holzer. Senator, can I make a comment, also, on the----
    Senator Dodd. Sure. Yes, please.
    Mr. Holzer [continuing]. Parent issue? I agree with all the 
comments my colleagues have made here, but we're missing an 
important dimension, I think, about these parents. Their 
lives--low-income parents, working in the low-wage labor 
market, and especially if they're single parents--are very, 
very stressful.
    Senator Dodd. You bet.
    Mr. Holzer. And often very unstable, and a whole range of 
things that go on in jobs. Parents often can't go to meetings 
at their schools because of the demands of the workforce, just 
the time it takes to commute back and forth, and work. And, of 
course, the jobs themselves are very unstable.
    I think, in addition to all these important suggestions, 
there's a range of services--we need to make parents' lives 
more stable and less stressful. It starts with things like paid 
parental leave and sick leave, which every industrial country 
in the world manages to provide, except for ours. It starts 
with more effective childcare and more steady childcare for 
working parents, transportation assistance.
    I think all those things would make the lives of parents 
less stressful, so then these other services that my colleagues 
have talked about might then be more effective in that kind of 
an environment.
    Senator Dodd. Now, you're preaching to the choir. I mean, 
I've been trying to----
    [Laughter.]
    I've been--that paid leave bill--took me 7 years to just 
get the one unpaid-leave bill through, back some 20 years ago. 
I couldn't agree with you more. Obviously, those--recognizing 
the very points you've made----
    In fact, I was looking at some numbers--and they may have 
come from you, Dr. Holzer--and I'm trying to find them--here it 
is; I think it should be. Census Bureau 2008 data show that a 
typical American household made less money that year than they 
did a decade ago. Typical family. And as incomes fell for the 
typical family, costs for the basics of a middle-class life--
homeownership, healthcare, childcare--rose so much that two-
breadwinner families had less discretionary income than a 
single-breadwinner family had, a decade previously. That's a 
pretty stunning statistic.
    Things were just flat. While we're watching salaries at 
some levels in our society skyrocket here, in fact, the average 
middle-income family was basically falling further and further 
behind.
    Your point, I guess, one I wanted to make when you said it, 
wasn't just holding down the one job; it's holding down the 
second or the third job--or four jobs, in some cases--with a 
two-parent household. And then tell me how you're going to find 
the time, in that case, to be that mentor, to go on that field 
trip, to do all these other things that we all recognize would 
be valuable.
    The direct correlation between the ability--I've tried to 
have a leave policy that would just provide 24 hours a year for 
a parent to be able to make the case and say, ``I need to be at 
that PTA meeting. I need to be at that sporting event. I need 
to go have that session for an hour with my child's teacher to 
understand how they're doing,'' that that would qualify as 
leave. Rather than just the sick child and the sick parent, 
but, here, understanding how valuable a limited amount of time 
can be to be at those kind of events or to participate on a 
regular basis, can make a difference.
    I obviously haven't gotten very far with the idea, but 
that's the point of trying to----
    Mrs. Powell. Well, we also say, with that first promise of 
ours, ``a caring adult in every child's life,'' it doesn't 
necessarily have to be limited to the parent.
    Senator Dodd. That's true.
    Mrs. Powell. There are opportunities for others to be 
mentors in a young person's life, and there are many, many 
success stories of young people who have succeeded because of 
that mentor who is outside of the family, but someone who gives 
their time and talent and interest to the well-being of a young 
person.
    Senator Dodd. Yes.
    Elaine, can you just--let me jump back to the commission 
notion with you for a minute. And again, you've had a wonderful 
experience in Connecticut. I love the fact that it's gone from 
getting data, and then doing something about it. Give us some 
advice and counsel--if you take Mrs. Powell's concept, and the 
one I've mentioned here--what would you have us do to make a 
commission at the national level effective, so it isn't just a 
place where we're going to gather once a year to listen to data 
collected by a bunch of people--how do you make those 
translations?
    Ms. Zimmerman. Yes. I think that's such a key question, 
because we do find entities that end up counting data, sort of 
like collecting tuna-fish cans in a cabinet. It seems to me 
that we would need to collect what works, to only look at 
outcomes, so that we're not just looking at numbers, but what's 
proven. We also need, in this country, to do what you did in 
healthcare, we need to look at prevention. If we had a 
commission, which would be so wonderful, nationally, but one of 
its mandates was not just to gather data and research, but to 
look at how to prevent problems, essentially creating a stock 
portfolio for children on what works, what's proven, where do 
we have a return on investment because the outcomes work, and 
then how do we look at economic modeling with that, so what 
builds upon one another so it will have the grandest impact for 
the best outcomes for children in this country?
    I think if we built that in, at the onset, so it was not 
just data, but prevention, outcome, and what should best be 
combined to combust the best results?
    Senator Dodd. I'm going to ask you--in fact, I'd like to 
ask you, Mrs. Powell, and you, Elaine, and any others who want 
to participate--help us, maybe, craft this over the coming few 
weeks and months and see if we can't put together, not just the 
idea of writing a bill that says ``form a commission''----
    Mrs. Powell. No, a national council on children would 
provide a coordinated national action plan.
    Senator Dodd. Yes.
    Mrs. Powell. It would raise the visibility of the needs of 
children in Federal policy and solidify our commitment, as a 
Nation, to the needs of young people. It would go a long way to 
have a council, where the needs of children are brought there, 
and are constantly assessed, looked at, and seeing what is the 
next step forward. But, having a constant coordinated national 
policy effort.
    Senator Dodd. Well, I'm going to invite you to help us 
write this----
    Mrs. Powell. Yes.
    Senator Dodd [continuing]. In the coming days.
    Mrs. Powell. And this council, once a year, could say what 
the goals are for that year, and how well they have met the 
goals of the past year.
    Senator Dodd. The idea is to establish sort of a report 
card.
    Mrs. Powell. A report card.
    Senator Dodd. Right.
    Mrs. Powell. But, one that takes stock of what has actually 
happened, and not sit there and formulate policy about what we 
ought to do.
    Senator Dodd. Yes.
    Mrs. Powell. We've done that for a long time.
    Senator Dodd. Long time. Go back--in fact, Senator Harkin 
pointed out, a week or so ago, there was a wonderful report 
done by Corporate America on what needed to be done in 
education, over 20 years ago. It's got some wonderful what you 
ought to do, but----
    Mrs. Powell. We've got lots of what we ought to do.
    Senator Dodd [continuing]. Ought to do, yes, not how to do 
it.
    I was very curious, Dr. Holzer, you made a very good point, 
I thought, earlier, and I've thought a lot about this, as well, 
and--on food and nutrition. And again, the obesity issue, we're 
all familiar with.
    I tip my hat to the First Lady of our country, Michelle 
Obama, for making this a priority issue. In fact, she's worked 
awfully hard at it. We've done a lot of work up here over the 
years in trying to address this question. It's been difficult.
    Again, Senator Harkin, who chairs the committee now, has 
talked about just how we can get vending machines and soft-
drink companies and so forth out of school buildings and the 
like.
    But, you made a very good--I think you made this point; and 
maybe it was Mr. Lund--and that is, of course, the absence--
these deserts on nutrition. And we see this all the time, where 
the only food stores are these small stores that have more 
highly concentrated fat and poor quality food in them. But, 
that's the only choice. You live in the only place you can go.
    Mrs. Powell. That's the only place they have to go.
    Senator Dodd. And how do we turn this around? How do we 
actually make a difference? I think, Mr. Lund, you mentioned 
that you actually had some success in this. I want to know what 
you did.
    Mr. Lund. We did. We are part of the Food and Fitness 
Consortium in East Harlem, and we worked with local government 
to do our very best to attract supermarkets to make an 
investment. And what attracts the supermarkets is knowing that 
they're not going to be Fort Apache, they're not going to be 
the only economic investment that's being made in that 
community, and making sure that we attract additional 
investments so that there's a critical mass of economic 
success--has been a model that's worked for us.
    Mrs. Powell. In New York City, one of our poster children, 
for example--one of our things is ``schools as hubs,'' 
delivering services in a community, the place where they know 
the children's name, and they can reach out to the parents.
    At P.S. 50, in New York City, it's a public school that 
sits in the middle of a housing project. In that school, there 
is a program to bring parents--mothers, particularly--into the 
school for nutrition training, cooking classes on how to 
prepare healthy food, and then they work to help these mothers 
bring in fresh produce and have their own business, selling to 
the people in the housing projects.
    Ms. Zimmerman. Great.
    Mrs. Powell. Because there are no supermarkets anywhere 
near there.
    Senator Dodd. No, I know.
    Mrs. Powell. The mothers soon saw the importance of good 
health and nutrition when one of their members in the class 
died because of her obesity and high blood pressure, etc.
    Senator Dodd. Yes.
    Mrs. Powell. In this school that serves as a hub, there is 
a free health clinic for children, run by the Children's Aid 
Society. There is an autistic charter school, where the other 
children mentor the autistic children. And City Year is in 
there, working with the children in that school to do projects 
in the community. This is one way to deliver those services to 
help educate a contained community about what is necessary for 
good health.
    Senator Dodd. Yes. Maybe we ought to bring together--that 
would be interesting--I know there are good people in some of 
these chains that--
    Mrs. Powell. There are many good things.
    Senator Dodd [continuing]. The people with Whole Foods have 
gotten to know, and--obviously high-end, but high-quality food, 
and--you know, the markets now--we're seeing more--we know that 
produce and stuff that's consumed within 15 miles of where it's 
grown is healthier in many ways. And there's this sort of a 
trend to move in this direction. But, how we can begin to see 
to it that these providers of nutrition, and those who seem to 
understand the value of it, and there's an appetite for it----
    Mr. Lund. There have to be economic incentives for the 
providers.
    Senator Dodd. Yes. No question about it.
    Mr. Lund. And that's really a key.
    Senator Dodd. But, we ought to figure out how to do that, 
because if you don't, all you're left with is what you have 
today. And you've got to break that cycle, it seems to me. It's 
another aspect of all of this.
    Well, we're just touching on these things, and there are so 
many things to talk about. I could stay all day with you, 
discussing these issues.
    I like the idea of us getting something where there's going 
to be a permanent place to start doing this, other than sort of 
this lurching--all of a sudden we pick up the paper, I guess, 
like USA Today, who made the point about one in five living in 
poverty, and then there's a raft of congressional hearings for 
a few weeks, then everyone, you know, comes around and bellows 
at one another, and then the next issue hits the front page, 
and we move on. We need to have some consistent, year-in/year-
out efforts in this regard, so we're not waiting for the next 
headline to provoke a congressional hearing on it.
    You've set the table for us here today, and that's been 
very, very helpful. Obviously there are a lot of people who 
could be sitting at that table to offer advice and counsel on 
how to go from here to there. My hope is we can get this idea 
going on a way--at least we've got a place now to really think 
about results-oriented--not just what-you-ought-to-be-doing 
recommendations, but actually how to do things. And then, from 
that hopefully we can breed some real, solid thinking.
    And seeing us move, Dr. Holzer, those numbers again, 
getting those numbers--pushing those numbers back down would be 
a great contribution.
    I can't thank you enough for being here this morning.
    I'll leave the record open for colleagues who may have some 
additional questions for you, and ask you to participate.
    And we'll stay in touch with you now as we go to the next 
stage of hearings, we're going to focus on for some very 
specific pieces of this, and maybe you'd have some 
recommendations of some people that we might listen to.
    In fact, Mrs. Powell, maybe just some of the suggestions 
you've made, some of the people who are at P.S. 50 might be 
some good witnesses for us to bring to the table of how 
something worked in a community like that.
    Mrs. Powell. Yes, you need people who have programs that 
work----
    Senator Dodd. Work. And so, we'll come back----
    Mrs. Powell [continuing]. So we can share how to do that.
    Senator Dodd. Thank you.
    Thank you all very much for being with us this morning.
    The committee will stand adjourned.
    [Additional material follows.]

                          ADDITIONAL MATERIAL

    Response to Question of Senator Sherrod Brown by Alma J. Powell
    Question 1. The kind of collaboration that you have built is 
exactly what we would like to replicate in Ohio and in other States. 
That is why I am preparing to introduce legislation--called the DIPLOMA 
Act--that will help communities coordinate, integrate, and provide 
services to strengthen student achievement, ranging from early 
education to tutoring and extended learning time to health care and 
social supports. Schools cannot do it alone but they can be a central 
place for connecting children and families to the support they need to 
be successful. What are the essential elements to building and 
sustaining these partnerships?
    Answer 1. The essential elements to making these partnerships work 
is to ensure that all sectors of a community are represented 
(corporate, nonprofit, civic and policy, faith and young people etc.) 
Each participant should understand their stake in the work, with clear 
goals and benchmarks to meet those goals set.
    At America's Promise Alliance (the Alliance) we have always 
believed that the success and well-being of children is the 
responsibility of all of us, which is why the structure of these 
partnerships must be all-inclusive. Moral significance aside, our young 
people are the future leaders of this Nation. They will be the ones to 
lead, sustain and grow our communities and if we don't invest in their 
success then we do so at the peril of the entire Nation. Nowhere is 
this more evident than in the high school dropout crisis we currently 
have in this country where 1.3 million teenagers drop out each year. 
The academic success of a child is determined just as much by what 
happens outside the classroom as inside. It's about the whole child, 
and therefore requires a whole community. We all have a stake in their 
success.
    If you're a taxpayer or concerned about our economy, you certainly 
have a stake. That's because each year of dropouts will ultimately cost 
our economy around $320 billion in lost wages, productivity and tax 
contributions. Instead of becoming productive citizens, 4 of every 10 
dropouts will depend on public assistance. And dropouts are eight times 
more likely to be incarcerated.
    If you own a business, you also have a stake. That's because 
dropouts have just one-third the consumer buying power of a college 
graduate.
    The Alliance has had some great success in leading, supporting and 
uplifting this type of collaboration across the country. We see it in 
communities--large and small, several of them in Ohio--that we've 
recognized as one of the 100 Best in the Nation for children. And we've 
also seen it recently in Detroit. Viewed as one of the most 
demonstrative examples of the dropout crisis, Detroit found itself with 
the lowest on-time graduation rate of the Nation's largest cities just 
5 short years ago. But Detroit was the first city to host one of our 
Dropout Prevention Summits in April 2008. At this summit, the idea to 
form a new partnership to help Detroit's most troubled schools was 
born. That partnership, called the Greater Detroit Education Venture 
Fund is now working to improve graduation rates at the 30 high schools 
in southeastern Michigan currently graduating less than 60 percent of 
their students.
    The strength of this partnership lies not only in the passion of 
the people involved to really change course for the children in this 
city, but also in the broad support and sector diversity that makes up 
this partnership. Led by the United Way for southeastern Michigan in 
collaboration with AT&T, Ford Motor Company Fund, the Skillman 
Foundation, the Fund has attracted support from the corporate, 
philanthropic, government, community-based and education sectors, as 
well as parents and young people themselves.
    In the 2 years since its inception, the Fund has launched five 
``turnaround schools'' in Detroit and after just 1 year in the 
turnaround model, projected graduation rates for the class of 2013 at 
these schools now range from 71 percent to 95 percent. One 9th grader 
started high school with a 1.8 GPA and now has a 3.0.
    This partnership has grown and thrived in a city hit hard by an 
economic downturn which demonstrates how its structure is one made for 
success.
       Response to Question of Senator Sherrod Brown by Jack Lund
    Question 1. School is letting out for the summer, and many children 
will lose access to the academic, social and nutritional supports they 
have during the school year. Just as many kids in high poverty 
environments backslide academically during the summer, they also 
backslide nutritionally. I worry that the participation in the summer 
meals program is much lower than the school year program. Do the YMCAs 
participate in the summer feeding program? How could we help you enroll 
more children?
    Answer 1. At the YMCA of Greater New York, the majority of our day 
camps (38 of 47) use the USDA Summer Feeding Program (SFSP) for lunch 
for our campers. There are many camps that use the program for 
breakfast as well. I would say an estimate of over 7,000 campers have 
lunch through the school program. The camps involved also have the 
opportunity to get lunches-to-go for campers when they are going on a 
trip.
    We bring most of the campers to a school feeding site and also have 
what they call ``satellite meals.'' Satellite meals are when the school 
provides meals that the camp picks up and feeds the campers at camp 
instead of at a school.
    Some challenges have been that where the feeding site or satellite 
site is too far from the camp, the distance has made it too difficult 
to either go to or pick up the food. If it were possible to have 
feeding done at the schools we occupy for camp that would be ideal.
    During the school year we are provided snacks at the majority of 
our afterschool programs. Some of the programs (those with 100 or more 
children) may be given dinner (a hot meal) instead of a snack. It 
depends on the school and services available.
    Although the program has gotten better with healthier choices it 
can be improved. It would be great for all children to receive snacks 
like fresh fruit.
    Nationally, I know that YMCA of the USA (Y-USA) has recently 
increased the promotion of the Summer Food Service Program in YMCA 
camps by working with the USDA and a national nonprofit (the Food 
Research Action Council). Just this year, Y-USA has hosted national 
webinars for local Ys, utilized the newsletter that is sent to all Ys, 
and sent informational postcards to 800 camp and child care programs at 
Ys. In addition, Y-USA Government Relations and Policy Staff here in DC 
have also been working with your Senate colleagues on the HELP 
Committee (particularly Senator Franken) on introducing legislation to 
promote nutritious offerings in the ``out-of-school settings'' both 
after school and in the summer.
    If you would like any more information on the New York City YMCA 
offerings, that of Ys nationwide, or the policy work of YMCA of the 
USA, please contact Kevin Shermach on my staff in New York City 
(<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="375c445f52455a56545f774e5a5456594e5419584550">[email&#160;protected]</a>) or Richard Bland (<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="adffc4cec5ccdfc983cfc1ccc3c9edd4c0cecc83c3c8d9">[email&#160;protected]</a>) of 
the YMCA of the USA staff in DC.
Response to Question of Senator Sherrod Brown by Harry J. Holzer, Ph.D.
    Question 1. How long-term unemployment affects next generation of 
workers and what policies might help?
    Answer 1. We have little direct evidence on how long-term 
unemployment among parents affects the job prospects of children and 
youth in the future. However, we have some reasons to believe that 
there will be some negative and long-lasting impacts on some of these 
youth.
    For one thing, long-term unemployment is correlated with parental 
poverty and with involuntary/permanent job loss, and there is direct 
evidence that these factors tend to hurt children's educational 
attainment and earnings over the long run. These factors--often 
associated with parental loss of resources and stress--are quite 
negative for children. If the unemployment is accompanied by housing 
changes and especially homelessness, the effects can be particularly 
negative for kids.
    Furthermore, high unemployment among adults comes hand in hand with 
high youth unemployment rates, which will recover very slowly in the 
coming years. The lengthy periods of joblessness for youth are known to 
generate long-lasting ``scars'' on their earnings potential, as Lisa 
Kahn (Yale) and Till von Wachter (Columbia) have shown.
    In terms of policy responses, I wouldn't necessarily target the 
children of the long-term unemployed per se, as there are many other 
categories of young people who need assistance. Rather, the appropriate 
assistance should be made more available to anyone who needs it, 
including these young people.
    I would expand any kind of short-term work experience efforts that 
are also linked to skill-building and credentialing for youth. These 
efforts include jobs programs--not just summer employment efforts 
(which are too late for this year) but year-round programs for youth, 
as long as they are enrolled in school or a legitimate training 
program. Funding apprenticeships and customized on-the-job training for 
youth and young adults makes sense, especially if we can obtain some 
employer buy-in. High-quality Career and Technical Education (CTE) for 
high school and community college students, as accomplished by Career 
Academies and Tech Prep, fit the bill as well. ``Sectoral'' training 
(as encouraged by the SECTORS Act) and career pathways also make much 
sense, as the training is directly relevant to and often interacts with 
real jobs and work experience.
    Alternatively, we can encourage more of these young people to go to 
(community) college and get credentials rewarded by the labor market 
they otherwise wouldn't get. The higher credentials would then offset 
their loss of work experience. But it would be crucial that they obtain 
serious credentials in areas where we expect employment growth to 
resume in the not-too-distant future.

    Whereupon, at 11:40 a.m., the hearing was adjourned.]

                            <all>


</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
